<html>
<title> - PROTECTING THE CIVIL RIGHTS OF AMERICAN MUSLIMS</title>
<body><pre>[Senate Hearing 112-940]
[From the U.S. Government Publishing Office]









                                                        S. Hrg. 112-940

                      PROTECTING THE CIVIL RIGHTS
                          OF AMERICAN MUSLIMS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON THE CONSTITUTION,
                     CIVIL RIGHTS AND HUMAN RIGHTS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             MARCH 29, 2011

                               ----------                              

                          Serial No. J-112-11

                               ----------                              

         Printed for the use of the Committee on the Judiciary



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



















                                                        S. Hrg. 112-940

                      PROTECTING THE CIVIL RIGHTS
                          OF AMERICAN MUSLIMS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON THE CONSTITUTION,
                     CIVIL RIGHTS AND HUMAN RIGHTS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 29, 2011

                               __________

                          Serial No. J-112-11

                               __________

         Printed for the use of the Committee on the Judiciary



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-265 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



















                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 CHUCK GRASSLEY, Iowa, Ranking 
DIANNE FEINSTEIN, California             Member
CHUCK SCHUMER, New York              ORRIN G. HATCH, Utah
DICK DURBIN, Illinois                JON KYL, Arizona
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
                                 ------                                

    Subcommittee on the Constitution, Civil Rights and Human Rights

                    DICK DURBIN, Illinois, Chairman
PATRICK J. LEAHY, Vermont            LINDSEY GRAHAM, South Carolina, 
SHELDON WHITEHOUSE, Rhode Island         Ranking Member
AL FRANKEN, Minnesota                JON KYL, Arizona
CHRISTOPHER A. COONS, Delaware       JOHN CORNYN, Texas
RICHARD BLUMENTHAL, Connecticut      MICHAEL S. LEE, Utah
                                     TOM COBURN, Oklahoma
                 Joseph Zogby, Democratic Chief Counsel
                  Walt Kuhn, Republican Chief Counsel
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                            C O N T E N T S

                              ----------                              

                       MARCH 29, 2011, 10:02 A.M.

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Blumenthal, Hon. Richard, a U.S. Senator from the State of 
  Connecticut....................................................    10
Durbin, Hon. Dick, a U.S. Senator from the State of Illinois.....     1
Graham, Hon. Lindsey, a U.S. Senator from the State of South 
  Carolina.......................................................     3
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........     9
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     5
    prepared statement...........................................    80

                               WITNESSES

Witness List.....................................................    39
Acosta, R. Alexander, Dean, College of Law, Florida International 
  University, Miami, Florida.....................................    29
    prepared statement...........................................    74
Cardin, Hon. Benjamin L., a U.S. Senator from the State of 
  Maryland.......................................................     7
Khera, Farhana, President and Executive Director, Muslim 
  Advocates, San Francisco, California...........................    25
    prepared statement...........................................    48
McCarrick, Cardinal Theodore E., Archbishop Emeritus of 
  Washington on behalf of the United States Conference of 
  Catholic Bishops, Washington, DC...............................    27
    prepared statement...........................................    68
Perez, Hon. Thomas E., Assistant Attorney General, Civil Rights 
  Division, U.S. Department of Justice, Washington, DC...........    10
    prepared statement...........................................    40

                               QUESTIONS

Questions submitted to Hon. Thomas E. Perez by Senator Grassley..    82
Questions submitted to Hon. Thomas E. Perez by Senator Kyl.......    83

                                ANSWERS

Responses of Hon. Thomas E. Perez to questions submitted by 
  Senators Grassley and Kyl......................................    86

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

Alliance for Justice, March 29, 2011, statement..................   117
American Civil Liberties Union (ACLU), Laura W. Murphy, Director, 
  Washington Legislative Office, and Michael W. Macleod-Ball, 
  Chief of Staff and First Amendment Counsel, statement..........    94
American Humanist Association (AHA), David Niose, President, 
  statement......................................................   118
American Jewish Committee (AJC), Richard T. Foltin, Esq., 
  Director, National and Legislative Affairs, Office of 
  Government and International Affairs, statement................   119
Amnesty International USA, Larry Cox, Executive Director, 
  statement......................................................   124
Anti-Defamation League (ADL), Robert G. Sugarman, National Chair, 
  and Abraham H. Foxman, National Director, statement............   128
Council of Islamic Organizations of Greater Chicago, Ahlam Jbara, 
  Associate Director, statement..................................   182
Council on American-Islamic Relations (CAIR), Corey P. Saylor, 
  Washington, DC, statement......................................   130
Council on American-Islamic Relations, Chicago Chapter (CAIR-
  Chicago), Chicago, Illinois, statement.........................   143
Ellison, Hon. Keith, a Representative in Congress from the State 
  of Minnesota, Fifth District, statement........................   180
Friends Committee on National Legislation (FCNL), March 29, 2011, 
  statement......................................................   197
General Board of Church and Society of The United Methodist 
  Church, Washington, DC, statement..............................   199
Human Rights First (HRF), Paul Legendre, Director, Fighting 
  Discrimination Program, statement..............................   201
Interfaith Alliance, Rev. Dr. C. Welton Gaddy, President, 
  statement......................................................   217
Interfaith Worker Justice (IWJ), Thomas Shellabarger, Public 
  Policy Associate, statement....................................   218
Intersections International, C. Eduardo Vargas, Director of 
  Advocacy & Public Policy, statement............................   219
Islamic Society of North America, March 29, 2011, statement......   222
Leadership Conference on Civil and Human Rights, The, Wade 
  Henderson, President and Chief Executive Officer, statement....   224
Mennonite Central Committee U.S. (MCC), Christina Warner, 
  Legislative Assistant for Domestic Affairs, Washington Office, 
  statement......................................................   227
Military Religious Freedom Foundation (MRFF), Michael L. 
  ``Mikey'' Weinstein, Founder and President, statement..........   228
Muslim Public Affairs Council, March 29, 2011, statement.........   282
National Immigration Forum, Washington, DC, statement............   286
Past Congressional Hearings on Discrimination Against Religious 
  Groups, the United States Senate and the United States House of 
  Representatives, list..........................................   105
Religious Bias Crimes (2000-2009): Muslim, Christian, and Jewish 
  Victims--Debunking the Myth of a Growing Trend in Muslim 
  Victimization, Clare M. Lopez, Roland Peer, and Christine Brim, 
  study..........................................................   107
Rights Working Group (RWG), Margaret Huang, Executive Director, 
  statement......................................................   287
Shoulder-to-Shoulder: Standing With American Muslims; Upholding 
  American Values, March 29, 2011, statement.....................   310
Sikh American Legal Defense and Education Fund (SALDEF), 
  Washington, DC, statement......................................   300
Sikh Coalition, March 29, 2011, statement........................   312
Sojourners, Jim Wallis, President and Chief Executive Officer, 
  statement......................................................   318
South Asian Americans Leading Together (SAALT), Takoma Park, 
  Maryland, statement............................................   292
Southern Poverty Law Center, J. Richard Cohen, President, 
  statement......................................................   321
Unitarian Universalist Association (UUA), The, March 28, 2011, 
  statement......................................................   340
University of Delaware, Dr. Muqtedar Khan, Associate Professor, 
  Fellow, Institute for Social Policy and Understanding, 
  statement......................................................   189
 
                      PROTECTING THE CIVIL RIGHTS
                          OF AMERICAN MUSLIMS

                              ----------                              


                        TUESDAY, MARCH 29, 2011

                      United States Senate,
Subcommittee on the Constitution, Civil Rights and 
                                      Human Rights,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:02 a.m., in
Room SD-226, Dirksen Senate Office Building, Hon. Dick Durbin, 
Chairman of the Subcommittee, presiding.
    Present: Senators Leahy, Coons, Blumenthal, Graham, and 
Kyl.
    Also Present: Senator Cardin.

             OPENING STATEMENT OF HON. DICK DURBIN,
           A U.S. SENATOR FROM THE STATE OF ILLINOIS

    Chairman Durbin. This hearing of the Subcommittee on the 
Constitution, Civil Rights and Human Rights will come to order.
    Today is the first hearing of this new Subcommittee, formed 
by the merging of the Constitution Subcommittee with the Human 
Rights and the Law Subcommittee, which I chaired for the last 4 
years.
    I want to personally thank Chairman Pat Leahy for giving me 
the chance to chair this new Subcommittee. I look forward to 
working with Senator Lindsey Graham, my friend and colleague 
and the Ranking Member of the Subcommittee, and the other 
Members of the Subcommittee who will join us. And after a few 
remarks from me, after a few of my own personal remarks, I will 
recognize Senator Leahy and Senator Graham.
    I think it is appropriate to hold the first hearing of this 
new Subcommittee on what is often called the Constitution's 
``First Freedom''--the freedom of religion.
    Many of our Nation's founders fled religious persecution, 
and they placed great importance on religious freedom. George 
Washington summed up the prevailing view when he said, and I 
quote: ``In this land of equal liberty, it is our boast that a 
man's religious tenets will not forfeit the protection of the 
law.''
    Despite the Framers' best intentions, throughout our 
history many religious minorities have faced intolerance.
    The lynching of Leo Frank in 1915 is one infamous example, 
and anti-Semitism continues to be significant in America.
    Often, prejudice has been directed at the religions of 
recent immigrants. In the last century, it was Catholics from 
places like Ireland, Italy, and Lithuania--my mother's country 
of origin--whose loyalties were questioned.
    I brought to this hearing a family treasure. One hundred 
years ago, in 1911, my grandmother landed in Baltimore, 
Maryland, from Lithuania. She brought with her my mother, 2 
years old; and my aunt and uncle; and they came down off the 
boat in Baltimore and somehow found their way to my grandfather 
in East St. Louis, Illinois. I have no idea how they made that 
journey not speaking a word of English.
    There is no physical evidence left of that journey but this 
little book. Cardinal, it is a Catholic prayer book written in 
Lithuanian, printed in 1863, which at the time of their 
immigration was contraband. The czar had ordered that all 
prayer books had to be written in Russian. My grandmother, whom 
I never knew, knew that if she brought this prayer book to 
America, she would have the freedom to use it. And I remembered 
that, and it is one of the reasons why this is the first 
hearing. This freedom of religion meant so much to my 
grandmother, who was no constitutional scholar, but she knew 
that America guaranteed that freedom, and that is what this 
hearing is all about.
    Today American Muslims from the Middle East and South Asia 
are facing similar discrimination. Attorney General Eric Holder 
put it well when he said that anti-Muslim bigotry is ``the 
civil rights issue of our time.''
    This backlash began after the 9/11 terrorist attacks.
    In fear and anger, some Americans wrongly struck out at 
innocent Muslims, Arabs, South Asians, and Sikhs.
    Since 9/11, we have worked to combat terrorism. We continue 
to solicit and receive the support of many Muslim Americans who 
love this Nation and work with our Government to protect it. At 
the same time, many law-abiding Muslim Americans face 
discrimination and charges that they are not real Americans 
simply because of their religion.
    This debate will continue, but terrorism is not the subject 
of today's hearing.
    We should all agree that it is wrong to blame an entire 
community for the wrongdoing of a few. Guilt by association is 
not the American way. And American Muslims are entitled to the 
same constitutional protections as every other American.
    I had many differences with President George W. Bush, but 
he showed real leadership after 9/11, when he made it clear 
that our war was with the terrorists who perverted the 
teachings of Islam, not with Muslims who were faithful to what 
he called ``a faith based upon love, not hate.''
    Congress also spoke with a clear voice. I cosponsored a 
resolution with John Sununu, who was then the only Arab-
American in the Senate, who condemned anti-Muslim and anti-Arab 
bigotry and said that American Muslims ``are vibrant, peaceful, 
and law-abiding, and have greatly contributed to American 
society.'' Our resolution passed both chambers of Congress 
unanimously.
    Today, President Obama continues to speak out as forcefully 
as President Bush, even though President Obama is challenged by 
a chorus of harsh voices:
    A leading Member of Congress stated bluntly, ``There are 
too many mosques in this country.''
    A former Speaker of the House falsely claimed, ``America is 
experiencing an Islamist cultural-political offensive designed 
to undermine and destroy our civilization.''
    And even a prominent religious leader said Islam is 
``wicked'' and ``evil.''
    Some have even questioned the premise of today's hearing--
that we should protect the civil rights of American Muslims.
    Such inflammatory speech from prominent public figures 
creates a fertile climate for discrimination. It is not 
surprising that the Anti-Defamation League says we face ``an 
intensified level of anti-Muslim bigotry.''
    Last year, the Southern Poverty Law Center, which tracks 
hate groups, designated five anti-Muslim hate groups for the 
first time. And we have seen anti-Muslim hate crimes, 
employment discrimination, bullying in schools, restrictions on 
mosque construction, and Quran burnings.
    Sadly, this is a nationwide phenomenon, including my home 
State of Illinois. To take just one example, a man was recently 
sentenced to 15 months in prison for blowing up the van of a 
Palestinian-American family that was parked in front of the 
family's home in Burbank, Illinois.
    It is our Government's responsibility to prevent and punish 
this kind of illegal discrimination. And it is incumbent on all 
Americans who love this Nation and the values our Constitution 
protects to make it clear that defending the civil rights of 
our Muslim neighbors is as important as the rights of 
Christians, Jews, and even non-believers.
    Of course, the First Amendment protects not just the free 
exercise of religion but also freedom of speech. But all of us, 
especially those of us in public life, have a responsibility to 
choose our words carefully. We must condemn anti-Muslim bigotry 
and make it clear that we will not tolerate religious 
discrimination in our communities.
    We can protect our Nation and still protect the fundamental 
freedoms of our Bill of Rights.
    I would like to acknowledge Senator Leahy is here. I will 
let him----
    Chairman Leahy. No, go to Senator Graham.
    Chairman Durbin. Okay. Senator Graham, if you will proceed, 
and then I will be happy to let Senator Leahy, the Chairman, 
make a statement.

           OPENING STATEMENT OF HON. LINDSEY GRAHAM,
        A U.S. SENATOR FROM THE STATE OF SOUTH CAROLINA

    Senator Graham. Well, thank you. To Senator Durbin, this is 
a hearing that we need to have, quite frankly. These are 
difficult issues. And, you know, what does it mean to practice 
religion in America? Well, it means that I have to stand up for 
your right to pursue your religion because if I do not stand up 
for your right, you will not stand up for mine.
    But part of freedom of religion and speech means that we 
can disagree. People can say, ``The one thing I have learned 
about freedom of speech, you can go to a funeral of an American 
serviceman who has been killed in action and say awful things 
in the name of freedom of speech.'' I am not so sure--I know I 
do not agree with the decision, but we are going to have to 
understand that religions are formed because people have 
different views. And it is okay to argue. There are just lines 
you cannot cross. And we are living in a rule-of-law society, 
so I stand by Senator Durbin and anyone else who wants to send 
a message. You can have your disagreements, but there are lines 
we are not going to allow you to cross.
    There are thousands of American Muslims serving in our 
military, and to anyone who will wear the uniform and protect 
America, God bless you. And that is the unique thing about 
America, that we are able to attract a wide group of people 
with different views who will fight for a common cause. And so 
I do understand where you are coming from.
    But there are some real issues to be dealt with. Can we do 
two things at once. Can we stand up for the rights of Muslim 
Americans? I think the answer is unequivocally, yes, we must, 
because if any one group suffers, all of us suffer.
    But we are going to have to come to grips with two things 
that are going on in the world. There are some things going on 
in the world and there are some things being said in this 
country that are disturbing. But there are efforts to recruit 
and radicalize young Muslims in America that have to be dealt 
with, and I can show you the statistics. What is going on in 
Europe, we are not immune from that. So the idea that we want 
to get ahead of an enemy who is trying to come to our shores 
and radicalize people in our country is a part of this war, and 
we are at war.
    What is going on in Scotland and England when you have 
doctors that attack an airport, when you have young men raised 
in London blow themselves up in a subway? Why should we be 
immune from that? So to the American Muslim Community, I will 
stand with you to practice your faith and be an integral part 
of this country. But you are going to have to help your 
country, probably uniquely compared to anyone else, understand 
what is going on and fight back. The front lines of this war 
are at our own back door, in our own neighborhoods. So to the 
American Muslim community, I will stand with you as you 
practice your religion and you exercise your rights under the 
Constitution. But I am asking you to get in this fight as a 
community and let it be known to your young people that there 
are lines that you will not cross, and there are radical 
messages being spread by people who would kill every moderate 
Muslim, Jew, Gentile, and agnostic alike, that we are all in 
this together.
    I have been to Iraq and Afghanistan enough to know that the 
biggest victim of radical Islam are fellow Muslims who choose 
to just basically try to live their life apart from this 
radical agenda, and for that they meet sometimes a very bad 
fate. So we are all in this one together. We are all in America 
together. We must stand up for each other. And to Senator 
Durbin, I will try to do my part as a Republican to let my 
party and anyone listening know that I totally get it when it 
comes to freedom of religion and the ability to practice 
different faiths. But I would like everyone in the country to 
know, including Muslim Americans, that the agenda being set by 
people who are trying to radicalize young Muslims here in 
America and throughout the world, it is just as bad for the 
Muslim-American community as it is for anyone else, because 
maybe the worst offender of all is someone who practices the 
faith but rejects their ideology. People in the Mideast who are 
trying to separate themselves from this radical minority 
movement within the Muslim faith need our help, and that is why 
we need to help those people in Libya who are trying to replace 
Qaddafi. We need to stand by these young people in Egypt who 
are trying to chart a different path. And you will never 
convince me that the young women who went into the square in 
Egypt want to replace Mubarak with the Muslim Brotherhood or al 
Qaeda.
    So we live in very complicated, interesting times, but it 
always helps to keep it simple. The simple thing for America is 
to understand that if we cannot accept differences among faith, 
then maybe yours is next. And the simple thing for every 
American to understand is that we are at war with an ideology 
that has no capital to conquer, no air force to shoot down, or 
no navy to sink. And we are going to have to work hard, and 
together, to win. To the Muslim-American community, get in this 
fight and protect your young people and your Nation from 
radicalization.
    Chairman Durbin. Thank you, Senator Graham.
    Senator Leahy.

          OPENING STATEMENT OF HON. PATRICK J. LEAHY,
            A U.S. SENATOR FROM THE STATE OF VERMONT

    Chairman Leahy. Thank you, Senator Durbin, and thank you 
for holding this hearing. I think it is extraordinarily 
important, and I am delighted this is the first hearing you and 
Senator Graham are going to have with your Subcommittee.
    We know that the FBI Director has testified before this 
Committee and others that, in the past few years, there has 
been a dramatic increase in the activities of domestic hate 
groups. Some of these activities have resulted in attacks 
targeting the American Muslim community. To make matters worse, 
some leaders, as Senator Durbin pointed out, have sought to sow 
fear and divisiveness against American Muslims. Fanning the 
flames of hate against those with different faith traditions 
runs contrary to our American values. Remember, our Nation was 
founded in large part on the importance of religious freedom.
    I welcome the renewed focus by some on our fundamental 
charter, the Constitution of the United States. But I would 
remind everybody the Constitution is not a menu with options to 
choose based on the political whims of the moment. Instead, it 
is a Constitution that sets forth freedoms and protections for 
all of us.
    The First Amendment in our Bill of Rights is one of the 
most defining principles of our national character. It 
preserves all our other rights. By guaranteeing a free press 
and the free exercise of religion, it ensures an informed 
electorate and the freedom to worship God as we choose--or not 
to worship as we choose. Our choice. It guarantees diversity. 
If you guarantee diversity and protect the idea of diversity, 
you guarantee democracy.
    Now, throughout the history of the world, religious 
minorities have been persecuted and maligned. There is a long 
list of religions whose members have been systematically denied 
freedom and categorically stigmatized, even exterminated. We 
must never forget this when we consider religious freedom and 
religious minorities in this country.
    All Americans deserve civil rights protections and the 
freedoms provided in the Constitution. That does not end with 
the vital freedoms in the First Amendment. It continues to 
ensure due process and equal protection. It is bolstered by 
important civil rights laws that we have passed to guarantee 
there not be discrimination against religion.
    Members of the Committee worked with the late Senator Ted 
Kennedy and myself over the past several decades to ensure this 
fundamental freedom. We worked together to pass the Religious 
Freedom Restoration Act and the Religious Land Use and 
Institutionalized Persons Act. It has long been a bipartisan 
issue in the Senate, but more important than being a bipartisan 
issue, religious freedom, it has been a consistent American 
value. And that is what really counts the most. American 
Muslims, like all Americans, must be protected by the rule of 
law that upholds these constitutional and statutory 
protections.
    We passed the Matthew Shepard Hate Crimes Prevention Act to 
strengthen the civil rights of all Americans. We responded to 
law enforcement concerns about the difficulty of bringing 
criminal prosecutors against those who target their victims 
because of their religion or ethnicity, their race, their 
gender, and so on.
    Last year, in the run-up to the national elections, the 
rhetoric became even more heated and threatening. There were 
threats of Koran burnings, and some have even asserted that 
Muslim Americans are not entitled to the protection of the 
First Amendment. That comment should shock and offend anyone 
who claims to love and respect the Constitution.
    Others on the radical right have suggested that Islam, one 
of the oldest and widely practiced religions on earth, is 
somehow not a religion at all and so its followers should not 
have the protections of the First Amendment. That is nonsense, 
and I would hope that Americans will remember why our Founding 
Fathers established this great Nation when they hear this kind 
of divisive rhetoric.
    I am glad to see the Assistant Attorney General for Civil 
Rights, Tom Perez, here; a former Assistant Attorney General 
for Civil Rights, Alex Acosta; and a former Judiciary Committee 
counsel, Farhana Khera, here for the hearing. But I am also 
pleased that one of the leading voices of the Catholic Church 
in America is here to testify. Cardinal McCarrick's testimony 
reminds us that we Catholics also had our loyalty to America 
questioned--not just in the earliest days of our Republic, but 
during the lifetimes of many of us.
    My friend Dick Durbin referred to the Irish and the 
Italians and the Lithuanians. I knew exactly what he was 
saying. My Irish ancestors faced this when they first came even 
to Vermont, now one of the most tolerant States in the country. 
My father as a teenager faced signs that said ``No Irish need 
apply,'' or usually more directly, ``No Catholics need apply.''
    My Italian grandparents in a small town with an Italian 
community were seen as different. My mother and uncles and 
aunts, they spoke a strange language where some who have heard 
some of the Vermont accents might think that is a strange 
language. But when they had Mass, the priest would have to come 
in the back door and the curtains had to be drawn, shades had 
to be drawn. Now, that would be inconceivable today.
    Members of the Senate of other faiths also know from their 
own experience that religious and ethnic bigotry can be easy to 
ignite and very difficult to extinguish. I agree with Cardinal 
McCarrick that ``religious freedom is destroyed by attacks on 
people . . . because of their religion and by the terrible 
misuse of religion to incite hatred and even justify 
violence.'' When divisive religious rhetoric is used for 
partisan advantage, it demeans the principles upon which this 
great Nation was founded.
    So, Mr. Chairman, I thank you.
    [The prepared statement of Chairman Patrick J. Leahy 
appears as a submission for the record.]
    Chairman Durbin. Thank you, Chairman Leahy. I appreciate 
that comment. I know that the Chairman takes great pride in his 
Irish-Italian heritage, and I have told him he is where the 
Gaelic meets the garlic.
    [Laughter.]
    Chairman Durbin. We have a returning Member here. Senator 
Ben Cardin was a great Member of the Senate Judiciary Committee 
for many years and now has gone on to other things--I will not 
say better things, but other things. But he still continues as 
Co-Chair of the U.S. Helsinki Commission on Human Rights, and 
he has asked for an opportunity to give an opening statement 
and participate in this hearing. Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN,
           A U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Well, Chairman Durbin and Senator Graham, 
thank you for allowing me to participate in this hearing. I 
appreciate that very much.
    The right to freely profess and practice a faith or not 
practice a faith is a fundamental right in our country. After 
more than 200 years, our First Amendment, which states that 
Congress shall make no laws respecting an establishment of a 
religion or prohibiting the free exercise thereof, continues to 
be the envy of people around the world. Even before the First 
Amendment was ratified, the Constitution contained a very 
important provision in Article VI, Section 3, that requires all 
Federal and State officials to swear an oath or affirmation to 
support the Constitution that provides that no religious test 
shall ever be required as a qualification to any office or 
public trust under the United States.
    In my own State of Maryland, only Christians could have 
full participation in public life until the Maryland General 
Assembly acted in 1825 to pass the so-called Jew bill. I think 
my ancestors would have been proud to see me elected to the 
Maryland House of Delegates, the House of Representatives, and 
now the United States Senate. Among other reasons, my 
grandparents also came to this country in search of greater 
religious freedom and tolerance. Yet today, notwithstanding the 
protections in our Constitution and laws, I am very concerned 
that we are witnessing the demonization of a particular 
religion. For the last decade, Muslim Americans have been the 
target of a growing wave of anti-Muslim bigotry. It is our 
obligation to talk about this growing problem and what steps 
the Government can take to reverse this trend and protect the 
civil rights of Muslims and all Americans.
    In the 111th Congress, we took an important step forward to 
protect civil rights, and that was the enactment of the Matthew 
Shepard and James Byrd, Jr. Prevention Act of 2009. This 
legislation gives the Justice Department new tools to combat 
hate crimes around the country and strengthens the ability of 
DOJ to pursue these hate crimes, including hate crimes based on 
religion.
    The Justice Department has indeed stepped up its 
enforcement to combat hate crimes and discrimination against 
Muslim Americans. I applaud these actions whether in the 
criminal law enforcement or aggressive enforcement of our Civil 
Rights Act, and I do note our first witness, Tom Perez, has 
been a real leader in that regard.
    In 1975, the United States joined all the countries of 
Europe and established the Conference on Security and 
Cooperation in Europe, now known as the OSCE. The United States 
Congress created the U.S. Helsinki Commission to monitor the 
U.S. participation and compliance with these commitments. I am 
the Senate Chair of the U.S. Helsinki Commission. In that 
capacity, I have raised religious and human rights issues in 
other countries, such as France when in the name of national 
security the parliament banned burqas or the wearing of other 
religious articles or when the Swiss restricted the building of 
mosques or minarets. These policies restricted not only the 
religious practices of Muslims but also Christians and Jews.
    I have also raised human rights issues in the United States 
when we are out of compliance with our Helsinki commitments. 
The United States, as a signatory of the 1975 Helsinki Final 
Act, has accepted a body of international commitments related 
to the rights of ethnic and religious minorities. In the OSCE 
context, the United States has pledged to promote a climate of 
mutual respect, understanding, cooperation, and solidarity 
among all persons living in its territory without distinction 
to its ethnic or national origin on religion, and will 
encourage the solution of problems through dialogue.
    The United States has played a leadership role with the 
OSCE, including the OSCE Parliamentary Assembly, to focus on 
various aspects of intolerance and discrimination, including 
against Muslims. The Helsinki Commission has been in the 
forefront of many related initiatives. During the 111th 
Congress, I chaired a Commission hearing in which we heard from 
special representatives from the OSCE, specifically to monitor 
and report on discrimination. Among those testifying was the 
OSCE Personal Representative on Combating Intolerance and 
Discrimination Against Muslims.
    The Senate is taking another important step in complying 
with our OSCE commitments by holding this hearing. We need to 
encourage the Muslim community in the United States and to 
engage with them, and I applaud the Chairman for holding this 
hearing.
    We cannot allow individuals or groups to pit Americans 
against another based on our religious beliefs. This only 
weakens our country and its freedoms. Let us hold dear the 
protections in our Constitution that safeguard the individual 
rights to freely practice their religion. Our country's 
strength lies in its diversity and our ability to have strongly 
held beliefs and differences of opinion while being able to 
speak freely and not fear reprisals for holding a religious 
belief that is not shared by the majority of Americans. We need 
to stand up against intolerance and injustice. Let us come 
together as a Nation and move forward in a more constructive 
and hopeful manner.
    Chairman Durbin. Senator Cardin, thank you. It is great to 
have you back on this panel.
    Senator Kyl.

               OPENING STATEMENT OF HON. JON KYL,
            A U.S. SENATOR FROM THE STATE OF ARIZONA

    Senator Kyl. Thank you, Mr. Chairman, and thank you for 
holding a hearing where you could entice Cardinal McCarrick to 
come back and visit with us. We will appreciate hearing from 
him.
    If this hearing reaffirms the need for all Americans to 
respect each other's faith, then I am sure we can all agree. 
But if it is part of a narrative that says it is improper to 
point out the obvious, that too many young Muslims are being 
radicalized to join jihad and everyone should stand against 
that, then count me out. The only way to stop terrorists is to 
recognize where they are coming from. Political correctness 
cannot stand in the way of identifying those who would do us 
harm. Nor can we ignore the First Amendment protections.
    I am a bit perplexed by the focus of today's hearing. If we 
are concerned about the most egregious religious hate crimes, 
then I wonder why we are not talking about crimes against Jews 
and Christians. According to the last year for which statistics 
are available from the Department of Justice regarding hate 
crimes based on religious bias, 71.9 percent were victims 
because of an offender's anti-Jewish bias--almost 72 percent--
8.4 because of anti-Islamic bias, about 6.4 because of anti-
Christian bias. So I wonder where our priorities are here.
    And how about the persecution in some Muslim countries 
today? How about the persecution of some in Muslim communities 
who are former Muslims who have converted to another faith or 
no faith at all?
    The point here is all bigotry is to be condemned, but we 
are only credible if we are principled in our condemnation. 
Selective indignation is not helpful.
    Thank you, Mr. Chairman.
    Chairman Durbin. Thank you, Senator Kyl.
    I would like to ask consent to enter into the record the 
two-page list of hearings that have been held in both the House 
and the Senate relating to discrimination against specific 
religious groups, including Jews and Christians, and note that 
this is the first hearing relating to any discrimination 
against those of the Muslim religion. I think it is obvious 
that we condemn prejudice and bigotry against all religious 
groups.
    Senator Blumenthal, do you have a statement?

         OPENING STATEMENT OF HON. RICHARD BLUMENTHAL,
          A U.S. SENATOR FROM THE STATE OF CONNECTICUT

    Senator Blumenthal. I would just like to thank you, Senator 
Durbin, and also Senator Graham, for conducting this hearing, 
which I think is by no means, as I understand it, intended to 
exhaust the subject, going to the point that Senator Kyl very 
appropriately makes. But I think that it really is designed to 
raise awareness and show our own commitment to fighting 
bigotry, hatred, prejudice, intolerance wherever it may exist.
    The United States right now is involved in a war against 
terror. In this very building, two floors below us, there is an 
ongoing hearing that springs from the war against terror before 
the Armed Services Committee. In that hearing, there is 
discussion about the service and sacrifice made by men and 
women wearing the uniform in places around the globe that we 
can barely pronounce. They are there to defend those values of 
freedom and democracy that really we celebrate today by having 
this hearing and recognizing the threats to our own freedom and 
democracy when we fail to defend it here at home.
    As intolerable as injustice and intolerance are in this 
country, as dangerous as intolerance and injustice, is 
indifference, when we are indifferent to hatred and bigotry 
against anyone based on religion or the content of what people 
say. And I believe that we are here today so that we can help 
protect those values at home that are threatened by terrorists 
abroad and can make sure that every individual is protected in 
his or her exercise of religion and speech.
    Thank you, Mr. Chairman.
    Chairman Durbin. Thank you, Senator Blumenthal.
    At this point I would like to turn to our first witness. 
Thomas Perez is the Assistant Attorney General for the Civil 
Rights Division in the Justice Department. And if you will 
please standing first and raise your right hand. Do you affirm 
that the testimony you are about to give before this Committee 
will be the truth, the whole truth, and nothing but the truth, 
so help you God?
    Mr. Perez. I do.
    Chairman Durbin. Let the record reflect that the witness 
has answered in the affirmative.
    Mr. Perez, thank you for being here. Please proceed with 
your opening statement, and we will have some follow-up 
questions.

STATEMENT OF HON. THOMAS E. PEREZ, ASSISTANT ATTORNEY GENERAL, 
CIVIL RIGHTS DIVISION, U.S. DEPARTMENT OF JUSTICE, WASHINGTON, 
                               DC

    Mr. Perez. Thank you, Chairman Durbin, Ranking Member 
Graham, and Members of the Subcommittee. My name is Tom Perez. 
It is an honor to be back in front of this Committee. I know my 
former boss, Senator Kennedy, is here in spirit today, and it 
is a real honor to be here to talk about this critical issue 
with, among others, my home-State Senator, Senator Cardin.
    Within hours of the 9/11 terrorist attacks, Muslim 
Americans, Arab Americans, Sikh Americans, and South Asian 
Americans nationwide were confronted with a powerful backlash. 
There was a surge of violence targeting these groups, including 
threats, assaults, arson, and murder. Two days after the 
attacks, an individual attempted to set fire to cars in the 
parking lot of a mosque in Seattle and shouted at worshipers 
fleeing the mosque. On the same day, an individual set fire to 
a Pakistani-American restaurant in Utah. The first person 
killed in post-9/11 violence, Balbir Singh Sodhi, was a Sikh, 
shot while pumping gas at his service station in Arizona 4 days 
after 9/11. In the 3\1/2\ months following the attacks, more 
than 300 Federal criminal investigations were initiated.
    There was also an increase in other instances of 
discrimination. On the afternoon of 9/11, a hotel in Iowa 
canceled the reservation that an Arab-American group had made 
to host a convention.
    The Federal Government, under President Bush's leadership, 
responded forcefully. The Civil Rights Division's Criminal 
Section created a task force to address hate crimes. Then the 
civil litigating sections ramped up their work to combat other 
forms of discrimination.
    Our predecessors built a solid foundation. Over the last 2 
years, we have worked to build upon that foundation and expand 
our efforts to engage with the communities to ensure that we 
are fulfilling our responsibility to protect their civil 
rights.
    One of my predecessors, who is here today, Alex Acosta, was 
the leader in the administration's response to the 9/11 
backlash incidents. Among other things, Dean Acosta established 
a new position of Special Counsel for Religious Discrimination, 
and he selected Eric Treene, who remains with me and who is one 
of my most trusted members of my staff on these issues, along 
with Mazen Basrawi. We have continued to host regular 
interagency meetings with representatives of the Arab-American, 
Muslim, Sikh, and South Asian civic organizations so that we 
can learn more and do the best job possible.
    We have also made it a priority to expand our outreach. In 
my travels across the country, I have met with leaders from the 
various communities, not just in Dearborn and L.A. or Chicago, 
but also I have met the Somali community in the Twin Cities, 
Muslim leaders in New Haven, Roanoke, Murfreesboro, Tennessee, 
and elsewhere. These meetings allow us not only to learn about 
civil rights violations where they are occurring, but also to 
build bridges to the community, to build trust and 
understanding.
    Regrettably, while nearly a decade has passed since 9/11, 
we continue to see a steady stream of violence and 
discrimination targeting Muslim, Arab, Sikh, and South Asian 
communities. In each city and town where I have met with 
leaders, I have been struck by the sense of fear that pervades 
their life, fear of violence, bigotry, hate, discrimination. 
This headwind of intolerance manifests itself in many different 
ways.
    Last month, we secured a guilty plea from the 50th 
defendant charged in a Federal criminal case of post-9/11 
backlash violence. Last year, three men were sentenced for 
vandalizing and fire-bombing a mosque in Columbia, Tennessee.
    In my outreach, I consistently hear complaints that 
children face harassment in schools, that they are called 
``terrorists'' and told to go home, even though this is their 
home. America is indeed where they were born.
    We have a regrettably robust docket of cases in the school 
systems involving harassment of Muslim, Arab, Sikh, and South 
Asian students. In fact, these sorts of harassment cases are 
the largest category of religious discrimination cases that our 
Education Section handles.
    We continue to follow the leadership in Republican and 
Democratic administrations, the bipartisan leadership to combat 
religious intolerance in the workplace. We have a number of 
cases involving individuals facing discrimination at work, with 
the EEOC reporting a 150-percent increase in complaints of 
discrimination against Muslims since 9/11. Many cases involve 
blatant, intentional discrimination such as an EEOC case filed 
during the Bush administration on behalf of two Iranian Muslim 
employees of a car dealership who were repeatedly harassed by 
management, called unspeakable words: ``terrorist,'' ``camel 
jockey,'' and other epithets. Similar cases have been brought 
during the Obama administration.
    We also continue the bipartisan tradition of pursuing 
religious accommodation cases. We recently filed a case on 
behalf of a Muslim teacher in Illinois who was forbidden to 
take an unpaid leave for a pilgrimage to Mecca, a requirement 
of her faith. This case is very similar to the one filed by the 
EEOC in the Bush administration against a Tennessee hospital 
that refused to grant a Muslim medical technician a 3-week 
leave of absence for the pilgrimage.
    No person should have to choose between their faith and 
their work, and Republican and Democratic administrations alike 
have fought hard to vindicate this principle.
    We continue to work hard to enforce RLUIPA. We celebrated 
the 10-year anniversary of the 24 matters opened by the Civil 
Rights Division since 9/11 that involve mosques; 14 have been 
opened in the last 10 months.
    Last year, we filed a brief in a State court case involving 
a proposed mosque--the construction of a community center that 
included a mosque, and there were neighbors who challenged that 
and argued that Islam is not a religion and, therefore, the 
county was wrong to treat the mosque in the same way it would 
treat a church.
    Our brief argued one and really only one thing: Islam is a 
religion. And we had to file that brief, and the court agreed 
and dismissed the case.
    These issues are and will continue to be nonpartisan.
    I applaud again, as I mentioned earlier, the efforts of my 
friend Alex Acosta on religious freedom. Our efforts are 
indeed, as you have all noted, a reflection of our values as a 
society. As a Nation, we believe strongly and unequivocally in 
religious freedom, and this belief is embodied in the laws that 
we enforce.
    The headwinds of intolerance that so many of the 
communities we are here to discuss today are facing, as you 
have all pointed out, are not different from the bigotry 
confronted by groups throughout our Nation's history. The good 
news is that with each wave of intolerance, our Nation has 
indeed responded, passing new civil rights laws, striking down 
old laws that sanction discrimination, and eventually 
recognizing the value of diverse communities and embracing 
those previously shunned.
    Today we are simply using the longstanding tools in our 
arsenal to address an emerging challenge that threatens the 
freedom of individuals who want nothing more than for their 
families to be accepted in their communities, to live their 
lives, practice their faith, and realize the American dream.
    We will continue to use every available tool in our law 
enforcement arsenal to transform this headwind of intolerance 
into a tailwind of inclusion and opportunity.
    Thank you for the opportunity to participate, and I look 
forward to answering any questions you may have, Mr. Chairman.
    [The prepared statement of Hon. Thomas E. Perez appears as 
a submission for the record.]
    Chairman Durbin. Thank you, Mr. Perez.
    Yesterday, the Chairman of the House Homeland Security 
Committee criticized this hearing, and he said, ``It reinforces 
the false premise that Muslims are having their civil rights 
violated.''
    Your testimony, of course, reflects the reality of 
discrimination facing Muslim Americans today. I would like to 
look at the Justice Department's own statistics. Muslims 
comprise less than 1 percent of the American population, but 14 
percent of the Department of Justice's cases of discrimination 
against religious institutions involve Muslims.
    Mr. Perez, according to your testimony, over 50 percent of 
the Department of Justice's mosque cases have been open since 
May 2010. You testified you believe that reflected an increase 
in anti-Muslim sentiment. Can you elaborate?
    Mr. Perez. I have had the privilege in this job of 
traveling to probably half the U.S. Attorney's Offices across 
the country, and as part of our visits to make sure that we are 
aggressively enforcing civil rights laws and listening, we are, 
Mr. Chairman, listening and learning, as I did in Chicago, from 
various stakeholders in the Muslim, Sikh, Arab, and South Asian 
communities. And it really tears my heart out to listen to the 
stories.
    I will never forget my trip to Tennessee where an imam 
talked about how his son does not want to go to school because 
he is so scared that every day they were telling him, ``Go 
home, you terrorist,'' and this is his home. And we see that 
across the country, not simply in my own anecdotes but in our 
work across a wide array of areas--employment, the criminal 
context, the religious zoning context, and the education 
context.
    Chairman Durbin. So let us speak to employment 
discrimination for a moment. According to data from the Equal 
Employment Opportunity Commission, Muslims account for 
approximately 25 percent of religious discrimination cases, 
although, as I mentioned earlier, comprise less than 1 percent 
of the American population. Mary Jo O'Neill of the EEOC said, 
and I quote, ``There is a level of hatred and animosity that is 
shocking. I have been doing this for 31 years, and I have never 
seen such antipathy toward Muslim workers.''
    Another example: The EEOC filed suit against a meat-packing 
company, Swift, alleging discrimination against 160 Somali 
Muslim employees. Among other things, the suit said that, 
``Managers, supervisors, and other employees regularly throw 
blood, meat, and bones at the Somali and Muslim employees.''
    So I would ask you: In the area of employment 
discrimination, this notion that was expounded by someone in 
the other body of lack of evidence of discrimination against 
Muslims, have you found in employment discrimination similar 
cases?
    Mr. Perez. We have, and, again, these cases did not start 
simply in 2009. These cases--and, again, I want to applaud the 
Bush administration for aggressively pursuing these cases in 
the post-9/11 universe. A 150-percent increase post-9/11 is a 
rather eye-popping figure.
    Chairman Durbin. Can I ask you, I would like to--I want to 
give everybody a chance, and there are quite a few Members here 
today, which I am honored that that is the case. But in her 
testimony, Farhana Khera, who is going to follow in the next 
panel, recommends that the Civil Rights Division create a 
centralized hotline to receive, refer, and track all civil 
rights complaints, not just those related to Muslim Americans. 
She argues that the current decentralized system is confusing 
for victims who want to contact the Civil Rights Division. She 
also notes that the lack of a centralized hotline makes it 
difficult to track and collect data on civil rights complaints, 
like a breakdown of complaints by race, national origin, and 
religion.
    So, for example, we do not know how many American Jews, 
Christians, or Muslims have filed complaints with the Civil 
Rights Division and how many have led to prosecution.
    What is your reaction to this suggestion? Does the Division 
currently have a mechanism for tracking complaints by race, 
national origin, and religion?
    Mr. Perez. Yes. We have had this discussion, and I 
appreciated the suggestion when it was brought to our attention 
a number of months ago. We now actually have an 800 number for 
addressing these issues. But the 800 number is not the only 
portal, and we wanted to make sure that people could file 
complaints in whatever mechanism was most comfortable. If you 
are working or living in Phoenix, for instance, you may have a 
relationship with your local U.S. Attorney's Office, and we did 
not want to preclude that.
    And so the collaboration and coordination that we have done 
with U.S. Attorney's Offices to make sure we are speaking with 
one voice is a critically important part of our efforts to make 
sure that we are tracking these.
    As it relates to your question about data collection, as 
you know, under the Hate Crime Statistics Act reporting is 
voluntary, and there are many communities where there is no 
reporting at all. And so while those statistics under the Hate 
Crime Statistics Act are useful, I think everyone agrees that 
they understate the amount of violence that we are seeing 
across the country because of the voluntary nature of the 
reporting. That is the law, and as a result of that, those are 
the weaknesses in that data.
    Chairman Durbin. I hate to pre-empt Ms. Khera's testimony 
by bringing up another point she is going to raise, but since 
you are here, I am looking for a reaction. She noted that under 
Title VI of the Civil Rights Act of 1964, which prohibits 
discrimination by federally funded entities, it covers 
discrimination on the basis of race or national origin, but not 
religious discrimination. So discriminating against a person of 
the Jewish faith, Muslim, Sikh, a student perhaps, because of 
their religion is not prohibited under Title VI. I would note 
that our former colleague, Senator Specter, who once chaired 
this Committee, introduced legislation in the last Congress to 
expand Title VI to cover religious discrimination.
    What is your opinion of this loophole in the law? And does 
it make it more difficult to protect children from 
discrimination in school?
    Mr. Perez. Well, we have a number of tools to attack 
religious discrimination. We have RLUIPA in the zoning context. 
We have Title II of the Civil Rights Act, which is the public 
accommodations provisions which have a religious reference. 
Title IV is the education context, so we do have tools there. 
Title VII is obviously employment. The Equal Credit Opportunity 
Act gives us that opportunity there, as well as the Fair 
Housing Act. And, in addition, until Title VI, although Title 
VI does not have the word ``religion'' in it, discrimination 
against Jews, Arab Muslims, Sikhs, and other members of 
religious groups can violate the statute if it is based on 
their actual or perceived shared ancestry or ethnic 
characteristics rather than their religious practices. And that 
would be a very fact-specific determination.
    Chairman Durbin. Why wouldn't we want to clarify that? I do 
not understand why we are stopping short of making it clear 
that religious discrimination is included. Do you see a policy 
reason why we should not?
    Mr. Perez. Well, again, in certain circumstances, Title VI 
can apply in these situations, and I am happy to have further 
conversation with you to explain how it can apply in these 
situations.
    Chairman Durbin. Thanks.
    Senator Graham.
    Senator Graham. Thank you, Mr. Perez, for your service to 
the country.
    Mr. Perez. Good morning, sir.
    Senator Graham. I guess my opinion about such matters is 
that one case is too many.
    Mr. Perez. I agree.
    Senator Graham. Anytime you have an example in America 
where somebody is being abused because of their faith, I think 
all of us should join in and push back, as the Bush 
administration did, as you are doing. So that is my baseline 
here. I do not know what the numbers are, but, you know, one 
for me is too many.
    To those who have freedom of speech, it is a gift given to 
you by a lot of people risking their own lives. So when you say 
things here at home and you do things here at home that create 
tension based on religious differences, particularly when it is 
the Muslim community involved, you are putting our soldiers at 
risk. We have soldiers all over the world of a variety of 
religions fighting in the name of America, trying to help 
moderate Muslims defeat radical Islam. And my view is that 
there are plenty of moderate Muslims out there who need our 
help and we should be helping because, you know, it is better 
to fight this war over there than it is here. But at the end of 
the day, we are all in this together.
    So let us talk about the school case in Berkeley, Illinois. 
It is fascinating. You gave some examples of conduct that I 
think almost every American would find offensive, and I am 
sorry that the child is having a bad experience at school, and 
we should all speak out against that, because there are plenty 
of Muslims wearing our uniform and we need to understand that, 
again, we are all in this together. But the Obama 
administration I think made a curious decision.
    As I understand the fact pattern in Berkeley, Illinois, you 
had a math teacher--was it Ms. Khan? Is that her name?
    Mr. Perez. Yes, sir.
    Senator Graham. Okay. Who basically wanted to go for a 3-
week pilgrimage to participate in the Hajj. Is that correct?
    Mr. Perez. Yes, Senator.
    Senator Graham. And she was the only math lab instructor in 
that school district, and it was during the school year, and 
the school district said, ``We do not want you to take 3 weeks 
off because we need you to finish out the school year.''
    As I understand civil rights law, it requires the employer 
to reasonably accommodate the worker's religious beliefs or 
practices as long as they do not impose more than a minimum 
burden on the employer's operation. Common accommodations 
include permitting employees to wear religious headgear or 
arrange a voluntary shift swap with co-workers on the Sabbath.
    Quite frankly, Mr. Perez, I think, as former Attorney 
General Mukasey said, that this is a stretch of the concept. 
Can she go on the Hajj during the summer? Is there any 
requirement that she go during the 3 weeks that she chose in 
the middle of the school year?
    Mr. Perez. Senator, the law says that an employer has an 
obligation to reasonably accommodate----
    Senator Graham. But my question is: Could the lady in 
question have met her religious obligations by going in the 
summer when school was out of session?
    Mr. Perez. No, sir.
    Senator Graham. She could not have?
    Mr. Perez. No.
    Senator Graham. Why?
    Mr. Perez. Well, I cannot get into the specific facts of 
the case other than----
    Senator Graham. I am no authority on the Hajj, but, I mean, 
is it just these 3 weeks in this one year that this lady could 
go?
    Mr. Perez. The Hajj, as I understand it, sir, is based on a 
lunar calendar, and the Hajj in this particular year was during 
this 3-week period. This case----
    Senator Graham. No, that is not my question. Put yourself 
in the school district's position. If you were a Christian and 
said, ``I want to go to Rome for 3 weeks,'' or ``I want to go 
to Jerusalem for 3 weeks in the middle of the school year,'' I 
would say no. You know, I am a Christian. I do not believe 
there is anything in my faith that says that I get 3 weeks off 
to observe Easter in any particular year.
    My point is that it is my understanding that she could have 
met her religious obligations without creating this burden of 
being the only math lab instructor in the school district, and 
I think that is going too far, quite frankly. And the fact that 
you took this case up is going to do more damage than good. 
That is just my 2 cents' worth about it.
    But my question is simple. Is this the only 3 weeks in her 
life where she could do this?
    Mr. Perez. Well, Senator, I cannot get into the specific 
facts of this particular case, but what I can tell you is----
    Senator Graham. Would you get back with me about the answer 
to my question? I know you may not be an expert on when you 
take a pilgrimage. But my point is I do not think so. I think 
she could have accommodated her religious beliefs without 
leaving the school district in the lurch. And it is nothing 
about her religion. I would say that about any religion. And I 
just think you are doing more harm than good on that front.
    Now, the cases you have described, I stand with you. You 
fight back. You push back. You bring these cases to court where 
people are being, you know, mistreated and abused. But my 2 
cents' worth, this is the wrong case to have taken up.
    Mr. Perez. Well, Senator, I just want to point out, because 
I know you want to make sure the record is complete, this is 
strikingly similar to a case brought by the Bush administration 
in 2007 where an individual requested a 3-week leave of absence 
for a pilgrimage to Mecca, and that, again, the employer----
    Senator Graham. Well, they were wrong, too.
    Mr. Perez. Well, again----
    Senator Graham. You know, is it okay to----
    Mr. Perez [continuing]. I will----
    Senator Graham [continuing]. Disagree with the Bush 
administration?
    Mr. Perez. Well, I want to make sure----
    Senator Graham. I hope so because a lot of people have been 
doing it lately.
    [Laughter.]
    Senator Graham. So they were wrong, too. I am just saying 
this is a good case study of what is too far. I totally agree 
with you that the other cases you have described all of us 
should stand up against, someone having material thrown at them 
and, you know, a kid feeling like he cannot go to school, you 
know, taunting us. That is not American. But I just think the 
Obama administration has made a mistake here. If the Bush 
administration believed this was right, I do not.
    One final question. I am running out of time here. Is 
radicalization of American Muslims on the rise?
    Mr. Perez. Sir, I am a civil rights expert so it is hard 
for me to say that the----
    Senator Graham. Fair enough. I just want to make a record, 
and here is what Secretary Napolitano said: ``We have seen an 
increased number of arrests here in the U.S. of individuals 
suspected of plotting terrorist attacks or supporting terror 
groups abroad, such as al Qaeda. Home-based terrorism is here, 
and like violent extremism abroad, it will be part of the 
threat picture that we must now confront.''
    She was absolutely right. So I want to do two things. I 
want to stand by you to make sure that the American Muslim 
community has the right to practice their religion free of 
bigotry and hate, because the First Amendment to me, Mr. 
Chairman, means one thing that is not subject to compromise. It 
means someone can practice a religion I do not agree with. And 
if we ever give in to the fact that that is not true, then who 
is to say your religion is not next? So I am with you there. 
But I do understand the concerns that a lot of Americans have 
that what is going on in Europe is now coming to our shores. So 
I wish the Obama administration would be more forceful in their 
approach to fighting homegrown terrorism because I think that 
is a weakness. Not reading a terrorist suspect their Miranda 
rights when they have just been caught trying to blow up a van 
in Times Square is not productive. It is not helpful. So I wish 
the administration would look at the practice of insisting that 
Miranda rights be read to someone who just tried to attack 
America here at the homeland because we need to know what is 
coming next--not abuse anyone, not torture them, but not say 
you have a lawyer right after you tried to blow up a van or an 
airplane.
    So I think the Obama administration, quite frankly, needs 
to change some of its policies when it comes to fighting 
terrorism here at home, and I will stand with you as you try to 
push back against legitimate cases of discrimination. But there 
are two sides to this story, Senator Kyl said, and I want to 
talk about both, not just one.
    Thank you very much.
    Chairman Durbin. Thank you, Senator Graham.
    Senator Leahy.
    Chairman Leahy. I do not have any questions. I would just 
note that the Obama administration has come out with new 
directives on the use of Miranda warnings which would make very 
clear if you have got somebody who looks like they have a bomb 
in Times Square, you can question them about the bomb and not 
have to stop because of a need for a Miranda warning. I only 
mention that because sometimes we hear this tossed around by 
commentators who are misstating what is the rule with the 
administration.
    I would be interested in seeing your response to Senator 
Graham's question on the Hajj issue. I know that case is 
pending. I have read a great deal about it. We are talking 
about U.S. v. Berkeley, Illinois, I assume.
    Mr. Perez. That is correct, Mr. Chairman.
    Chairman Leahy. I would be interested in seeing your 
response, and I have no questions, Mr. Chairman.
    Mr. Perez. I will certainly provide you the response, and I 
am very proud of the work we are doing in that case.
    [The information appears as a submission for the record.]
    Chairman Durbin. Thanks, Senator Leahy.
    Senator Kyl.
    Senator Kyl. Thank you.
    Mr. Perez. Good morning, Senator.
    Senator Kyl. Good morning, sir. One of the cases that has 
been brought to our attention is the case of Luqman Abdullah. 
It created kind of a firestorm of criticism about FBI tactics. 
It has been one of the examples to accuse law enforcement 
agencies of overstepping their bounds and unlawfully targeting 
the Muslim-American community.
    I understand your office investigated the Abdullah case and 
determined that no criminal investigation was warranted. Is 
that correct?
    Mr. Perez. We determined that no criminal prosecution was 
warranted.
    Senator Kyl. No prosecution was warranted.
    Mr. Perez. Yes, that is correct, Senator.
    Senator Kyl. And I assume that your office has reviewed 
similar allegations of misconduct. Could you just generally 
characterize for the Committee here today your overall 
impression of our law enforcement agencies' procedures and 
tactics in these situations?
    Mr. Perez. Well, again, our review in that particular case 
and our review generally is to ensure that in the course of 
carrying out their duties, there was not any violation of 
Federal law. In this particular case, it would be the law that 
says that anyone who is acting under color of law who willfully 
deprives someone of a right guaranteed by the Constitution--and 
in this case, it would be the right to be free from the 
intentional use of excessive force--that was what we were 
examining. And so our review focused--and it focuses generally, 
whether it is a Federal law enforcement agent or a State or 
local law enforcement agent, our review focuses on whether 
there is evidence of an intentional deprivation of a 
constitutional right. In that particular case, after a thorough 
review, we concluded that the case did not present--that the 
constitutional rights of the individual that you referenced 
were not violated.
    Senator Kyl. And now more than a decade after 9/11, do you 
have a general assessment, especially at the Federal level, of 
law enforcement procedures and tactics, as I said?
    Mr. Perez. Procedures and tactics in what context?
    Senator Kyl. As they relate to situations like this case.
    Mr. Perez. Well, we review a number of matters not simply 
involving Federal law enforcement.
    Senator Kyl. What I am trying to get at--there is no--I am 
just trying to get a general perception of how we are doing. 
Are we doing better? Are we doing worse?
    Mr. Perez. We are working very closely with all of our 
Federal, State, and local law enforcement colleagues to ensure 
that we do the best possible job of enforcing the laws and 
ensuring protections of the Constitution. Those are not 
mutually exclusive. And I spend a lot of time, Senator, in New 
Orleans right now making sure that we are building a blueprint 
for sustainable reform so that we can reduce crime, we can 
ensure respect for the Constitution, and we can enjoy public 
confidence in law enforcement. Those are the real benchmarks 
for our work. And whether it is the Federal or the State or 
local law enforcement, those are the real benchmarks of, I 
think, success in our policing. And we certainly work with our 
colleagues in Federal law enforcement to--I have personally 
participated in trainings at the Border Patrol academies on 
police integrity issues and civil rights issues, and our 
colleagues in Federal law enforcement across the board actively 
welcome our participation in that because we recognize that, 
again, we must succeed in reducing crime and respecting the 
Constitution.
    Senator Kyl. Sure. I appreciate that. Last Friday, I 
attended a dinner of American Muslims who complained to me 
about being intimidated and even threatened by other Muslims 
because these folks believed in separation of mosque and state, 
and people who threatened and intimidated them--well, 
intimidated them because of those particular beliefs. I am sure 
that your office would be just as willing to investigate and, 
where appropriate, prosecute those kinds of cases as in a 
situation where it is a non-Muslim doing the intimidating or 
threatening. Would that be accurate?
    Mr. Perez. That is correct, sir. If we have credible 
allegations of a potential violation of Federal civil rights 
laws, we will investigate. In, I believe, the first prosecution 
under our new hate crimes law, we are, again, aggressively 
applying that new law that Senators Leahy and Durbin referenced 
before, and we will follow the facts and make an appropriate 
judgment of the application of the facts to the law.
    Senator Kyl. Thank you. One young woman specifically asked 
me why, after she had reported this--and I will not indicate 
which city it was in, but after reporting it to the police in 
the city, she said she got no satisfaction at all. And I did 
not have much of an answer. What I am going to do is get back 
to her and tell her of our conversation and see whether maybe 
communicating with the U.S. Attorney in Arizona, for example--
that is one of the ways you suggested this could be done, that 
there could be some relief in cases like the ones she brought 
to my attention.
    Mr. Perez. I am happy to answer any questions that you 
might have or that your constituent might have.
    Senator Kyl. Thank you very much. I appreciate it.
    Chairman Durbin. Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman, and thank you, 
Mr. Perez, for your very dedicated and distinguished work and 
the work of the Department of Justice in this area.
    Mr. Perez. Thank you.
    Senator Blumenthal. I want to go back to the question that 
Senator Durbin was pursuing. Should the laws be strengthened, 
Federal laws be enhanced in this area to provide more effective 
tools for Federal enforcement? And if so, in what areas?
    Mr. Perez. I feel like we have an ample number of tools 
right now, and we are using them in a very robust fashion. The 
biggest challenge is always to make sure you have the budget to 
carry out the laws, and I really appreciated the leadership of 
the President and the Senate and the House in enabling us to 
get additional resources in the fiscal year 2010 budget, 
because with those additional resources, that was the largest 
infusion of resources in our Division's history. We were able 
to expand the work in this and other critical areas so that we 
could, again, do the work in the RLUIPA context because we do 
see this headwind of intolerance rearing its ugly head in the 
zoning context. We had a case in suburban Chicago, for 
instance.
    The education setting, that is one of the two or three most 
frequently heard comments I get when I do outreach, is about 
bullying in schools. If you are in a learning environment where 
you cannot learn for whatever reason--and in this particular 
case, because you are Muslim or Arab or Sikh or South Asian, 
and you are being told to go home, and this is your home--that 
is an emerging growth area for us that we must address.
    So for me, I guess my biggest wish list is to make sure 
that we continue to have the resources to enforce these laws.
    Senator Blumenthal. Your challenge is primarily in the area 
of enforcement, not so much the substantive authority that you 
would see the Congress improving.
    Mr. Perez. We feel at the moment like we have a large 
number of tools to do the work we need to do. We are always 
willing to listen and work with you on----
    Senator Blumenthal. Well, let me ask you, then: Wouldn't it 
make sense to engage or involve the States and local 
governments more actively in this effort?
    Mr. Perez. That is an excellent question, and we have a 
very active program of engagement. For instance, our Community 
Relations Service has provided training to over 750 law 
enforcement agencies across the country on precisely these 
issues of Muslim, Sikh, Arab, South Asian engagement. After the 
passage of the Matthew Shepard and James Byrd, Jr. Act, we used 
that new hate crimes law as an opportunity to engage State and 
local enforcement. And so we have trained literally thousands 
of officers across the country.
    Law enforcement and civil rights enforcement is a joint 
venture between Federal, State, and local law enforcement, and 
I completely agree----
    Senator Blumenthal. And I know that many States like 
Connecticut have laws that specifically prohibit crimes based 
on----
    Mr. Perez. Correct, and I had the privilege of spending a 
day in your----
    Senator Blumenthal. In New Haven.
    Mr. Perez [continuing]. In New Haven, a week or two ago, 
and we had a wonderful conference with the U.S. Attorney, Mr. 
Fein, and we had a lot of State and local officials there, 
where we sent a very strong message to the residents of 
Connecticut that civil rights is indeed this joint venture 
among Federal, State, and local partners. And so your point is 
very well taken.
    Senator Blumenthal. And I am wondering if you have some 
guidance that we can take back to our States, to our enforcers 
at the State and local level as to how they can be more active 
partners in this effort.
    Mr. Perez. Communication is key, and we have set up a 
number of critical coalitions. I was in Detroit recently, for 
instance, with the U.S. Attorney, and she has a very wide-
ranging coalition of community people, Federal, local, State 
authorities who come together on a monthly basis to discuss 
issues. And sometimes those meetings can be tense, but they 
have built trust through that coalition, and when you have that 
trust established, then when an incident occurs that tests that 
trust, you at least have that reservoir that you can build 
from. If you wait until the train wreck to come together for 
the first time, you are seldom going to be able to forge the 
necessary consensus.
    So that coalition building that we have spent a lot of time 
doing has really borne fruit for us and I think for the 
communities as well.
    Senator Blumenthal. Is there a written protocol or 
procedure that you follow in determining whether the 
enforcement of a hate crime prosecution--and it is a criminal 
matter that obviously is a violation of State law, it could be 
prosecuted by State authorities.
    Mr. Perez. Correct.
    Senator Blumenthal. Or by Federal law, and that issue 
frequently arises as to State, Federal, choices of jurisdiction 
or venue. But in the civil rights area, do you have one that 
applies in the hate crimes or bigotry and bias----
    Mr. Perez. Yes. I spent the better part of a decade as a 
career prosecutor, a Federal prosecutor doing hate crimes 
cases, and the short answer is yes, we do have protocols in the 
U.S. Attorney manual. The most important protocol, though, that 
we have followed and we will continue to follow is what is in 
the best interest of the case. And I have personally been 
involved in a number of hate crimes cases where we have worked 
them up, and then it was in the best interest of the case for 
the State to take it.
    The murder of the Sikh American in the aftermath of 9/11, 
that was a State prosecution. The Federal Government did not 
prosecute that case. It was in the best interest of the case 
for the State of Arizona to take on that prosecution.
    I did a hate crime case in Lubbock, Texas, involving South 
Bay Nazi Youth, neo-Nazi white supremacists who started a race 
war targeted at African Americans in this case. In that 
particular case, the DA came to us and said, ``I really want 
you to take the case.'' He had just been elected. He was just 
building his staff. And we deputized one of his people as a 
special AUSA, and that enabled us to secure the conviction of 
the three defendants in that case.
    So there are U.S. Attorney guidelines, but I think the most 
important guideline will always be what is in the best interest 
of the case.
    Senator Blumenthal. Thank you very much.
    Chairman Durbin. Thanks, Senator Blumenthal.
    Mr. Perez, I have two questions I would like to ask. One is 
brief. The staff research memo on the issue raised by Senator 
Graham relative to the teacher asking for 3 weeks for a visit 
to Mecca for the Hajj, I do not know why Illinois keeps popping 
up in all these cases, but it turns out that there are other 
cases that have been considered. In one, United States v. the 
Board of Trustees of Southern Illinois University in 1995, it 
was about the employer's failure to accommodate an employee who 
requested leave to attend an 8-day religious festival, the 
Worldwide Church of God's Feast of Tabernacles, and I see that 
there have been other cases involving that particular Christian 
religion and this 8-day leave, 14-day leave that has been 
requested.
    I also find cases here involving discrimination against 
those who have asked to be spared being scheduled on the 
Sabbath.
    Mr. Perez. Correct.
    Chairman Durbin. So there are cases involving Jews, 
Christians, and in this case Muslims. Am I not correct--and I 
hope my staff is correct; I believe they are--that these cases 
are very fact specific with regard to evaluating the impact on 
the employee's religion and the hardship on the employer, so it 
really is a fact case to be determined as to whether----
    Mr. Perez. That is absolutely----
    Chairman Durbin [continuing]. A 3-week absence or an 8-day 
absence causes a hardship in either or both directions?
    Mr. Perez. That is absolutely correct, and it is important 
to note that it is the employer that has the burden of 
demonstrating--of providing the reasonable accommodation or 
demonstrating the undue hardship. And there are a long line of 
cases dating back literally decades. Some were brought by the 
United States, either the EEOC or DOJ. Some were private cases. 
They relate to Christian denominations, Seventh-day Adventists, 
cases involving accommodation 1 day a week of people who are 
working the Sabbath. So if you work in that particular facility 
and you do not observe the Sabbath, you are going to work more 
Saturdays and more Fridays than that person. And, again, that 
was upheld in the jurisprudence.
    I am very proud of the work we are doing in this case, and, 
again, it is part of a long line of cases brought by Republican 
and Democratic administrations alike.
    Chairman Durbin. So let me move into one area we have not 
touched on that I think is timely and controversial and perhaps 
is still being debated within the administration. A number of 
States around the country are considering laws prohibiting the 
use of Islamic religious law, also known as Sharia. For 
example, Oklahoma adopted a ballot initiative prohibiting 
courts from using international law or Sharia.
    We are all familiar with the way Sharia is interpreted in 
Iran and Saudi Arabia. Hardly a day goes by that there is not a 
report in the press of some abuse of this Sharia law by Western 
standards. But for American Muslims Sharia includes rules 
dealing with personal matters, like prayer, fasting, marriage, 
and inheritance. So there is a fear among some Muslim Americans 
that a strict ban on Sharia would, in fact, inhibit their 
freedom of religion.
    An American Muslim in Oklahoma challenged the anti-Sharia 
ballot initiative on First Amendment grounds, arguing that the 
law would prevent courts from carrying out his will, which was 
drafted in accordance with Islamic law. A Federal court agreed 
and has enjoined the Oklahoma ballot initiative.
    Is the Civil Rights Division, which you represent, 
monitoring anti-Sharia laws like the one in Oklahoma to 
determine if, in fact, they do violate the civil rights of 
American Muslims?
    Mr. Perez. I am certainly aware of the Oklahoma matter, and 
I am aware of this conversation in other States. I certainly 
heard of this in my visit to Tennessee, for instance, where 
this issue was discussed and raised by one of the litigants in 
the local litigation where we filed our brief. And so we will 
continue to review these laws to see if there is a potential 
Federal civil rights violation, and, again, I am aware of 
Oklahoma and other settings.
    Chairman Durbin. So at this point there is no case pending 
or any opinion on your part as to----
    Mr. Perez. We did not intervene, we have not filed a brief 
in the Oklahoma matter or any other matter where this issue may 
be raised.
    Chairman Durbin. Thank you.
    Senator Kyl, do you have any other questions?
    Senator Kyl. No.
    Chairman Durbin. Okay, good. Mr. Perez, thank you for your 
time. We sure appreciate it.
    Mr. Perez. Thank you for your time. Thank you for your 
courtesy.
    Chairman Durbin. I would like to invite the second panel to 
come up, if they would, please, and I am going to read their 
bios as they approach the table to save a few moments here, 
first thanking all of them for being here.
    Our first witness who will testify is Farhana Khera, the 
president and executive director of Muslim Advocates. Prior to 
joining Muslim Advocates in 2005, Ms. Khera was counsel to the 
Senate Judiciary's Subcommittee on the Constitution, worked for 
6 years with our colleague and friend, Senator Russ Feingold, 
when he chaired this very same Subcommittee. Prior to the 
Senate, Ms. Khera was an associate with the law firm of Hogan & 
Hartson and Ross, Dixon & Masback. Ms. Khera received her B.A. 
from Wellesley and her J.D. from Cornell Law School, and we are 
glad to have her back before the Committee. And before I 
administer to all three, I will just go through the 
biographies.
    Our next witness is a dear friend and someone I respect so 
much, Cardinal Theodore McCarrick, the Archbishop Emeritus of 
Washington. Cardinal McCarrick is currently serving as a 
distinguished visiting scholar in the Kluge Center at the 
Library of Congress. He served as Archbishop of the Roman 
Catholic Archdiocese of Washington from 2001 to 2006. On 
February 21, 2001, 7 weeks after his installation as 
Archbishop, McCarrick was elevated to the College of Cardinals 
by Pope John Paul II. That may be a record. I do not know. I 
have to check in the Vatican Library.
    As Archbishop of Washington, McCarrick served as chancellor 
of the Catholic University of America in Washington, DC, 
president of the Board of Trustees of the Basilica of the 
National Shrine of the Immaculate Conception. From 1986 until 
2001, he served as the fourth Archbishop of Newark. In 1981, 
Pope John Paul II appointed him to be the first bishop--I am 
going to mispronounce this--Metuchen?
    Cardinal McCarrick. Metuchen, but that is all right.
    [Laughter.]
    Chairman Durbin. Metuchen, a newly established diocese in 
New Jersey. Cardinal McCarrick earned a bachelor's degree and a 
master's degree from St. Joseph's Seminary in Yonkers, New 
York. After he was ordained into the priesthood, he went on to 
earn a second master's degree in social science and a doctoral 
degree in sociology from the Catholic University of America. It 
is indeed an honor to have you with us today, and I am going to 
feel a little bit nervous administering an oath to a Cardinal.
    Our next witness is R. Alexander Acosta, the dean of the 
College of Law at Florida International University. Did I 
pronounce that right?
    Mr. Acosta. You did.
    Chairman Durbin. Good. Previously, Mr. Acosta was U.S. 
Attorney for the Southern District of Florida where, among 
other high-profile cases, he handled the prosecutions of Jack 
Abramoff for fraud, Jose Padilla for terrorism, and Charles 
Taylor, Jr., for torture. Prior to that, Mr. Acosta served as 
Assistant Attorney General of the Civil Rights Division where 
he led the Justice Department's efforts to combat the post-9/11 
backlash against Arab and Muslim Americans. Earlier, Mr. Acosta 
served on the National Labor Relations Board and worked at the 
law firm of Kirkland & Ellis. He received his B.A. from Harvard 
College and his law degree from Harvard Law School. He was a 
law clerk for Justice Samuel Alito, then a Third Circuit Court 
judge.
    I would like to ask all three witnesses, if you do not 
mind, please stand, and I will follow the ordinary Committee 
procedure and administer the oath. Raise your right hand. Do 
you affirm that the testimony you are about to give before the 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you God?
    Ms. Khera. I do.
    Cardinal McCarrick. I do.
    Mr. Acosta. I do.
    Chairman Durbin. Thank you. Let the record reflect that all 
three witnesses have answered in the affirmative.
    Ms. Khera, please proceed with your opening statement.

 STATEMENT OF FARHANA KHERA, PRESIDENT AND EXECUTIVE DIRECTOR, 
          MUSLIM ADVOCATES, SAN FRANCISCO, CALIFORNIA

    Ms. Khera. Good morning, Mr. Chairman, Members of the 
Subcommittee. On behalf of Muslim Advocates, thank you for the 
opportunity to testify on the civil rights of American Muslims 
today. And, Mr. Chairman and Senator Graham, I want to 
especially thank you for your leadership in holding this 
hearing and bringing much needed attention to rising anti-
Muslim bigotry.
    You know, we have been hearing from Americans from all 
faith backgrounds and all walks of life who recognize that it 
has really become a growing menace to the safety and, frankly, 
the social fabric of our Nation, so it is especially heartening 
to see bipartisan support on this issue.
    I was born and raised in Painted Post, a small town in 
rural upstate New York. At the start of every school day, like 
school children across America, I stood and recited the Pledge 
of Allegiance. The last line of the pledge says that ``we are 
one Nation, under God, indivisible, with liberty and justice 
for all.'' There is no qualifier. It is just simply that we are 
one Nation with liberty and justice for all.
    As this Subcommittee knows well, our Nation has a unique, 
long-cherished commitment to freedom, particularly religious 
freedom. In fact, Muslims have been a part of America for 
centuries, since the first slave ships arrived at its shores. 
Today American Muslims reflect every race and ethnicity that 
comprise our Nation's rich heritage. That is why recent 
rhetoric demonizing Islam and Muslims--brutal attacks, 
harassment, and discrimination, and in some cases even 
threatening to kill Americans, including children, based on 
their faith--is so vile. It is not who we are as Americans, and 
it has no place in the schoolhouse, in the workplace, or in our 
communities.
    Nearly 10 years after 9/11, hate crimes motivated by anti-
Muslim bias targeting Muslim, Arab, Sikh, and South Asian 
Americans remain higher than levels before 9/11. Some are 
deadly.
    Late last summer, a New York taxi driver was stabbed and 
almost died after a passenger asked him whether he was a 
Muslim.
    Just earlier this year, two elderly Sikh men were gunned 
down while taking an afternoon stroll through their 
neighborhood in northern California, killing one and critically 
injuring the other.
    Employment discrimination complaints are at an all-time 
high, with Muslim bias-based complaints comprising 25 percent--
25 percent of complaints received by the EEOC from 2008 to 
2009--while Muslims comprise only 1 to 2 percent of the entire 
population.
    Opposition to mosque construction is also on the rise and 
getting uglier. And Muslim, Arab, Sikh, and South Asian parents 
are more concerned than ever about their children. In one 
especially egregious case, a Muslim high school student in 
Staten Island was subjected to a harrowing ordeal in which he 
was frequently labeled a ``terrorist,'' punched in the groin, 
and spat on by fellow teenagers. Sometimes his mother would 
catch him rocking back and forth saying, ``Why me? What did I 
ever do to them?'' One day he was beaten so severely that his 
mother took him to a doctor. There was blood in his urine, and 
he suffered from headaches and memory loss. His assailants were 
later arrested and charged with a hate crime.
    This is just one vile example of how anti-Muslim bigotry is 
playing out ferociously across America today. Parents worry: 
Will my child be next? And they worry about the future. Will 
America be hospitable to minority faiths? Will its better 
angels prevail? Or will the values of freedom and respect 
become a relic of the past?
    Anti-Muslim bigotry has been simmering and growing since 
the tragic events of September 11th--a terrorist attack that 
was an attack on all Americans, Muslims included. But in the 
last several months, anti-Muslim rhetoric has reached a 
disturbing new level. Prominent religious, military, and even 
political leaders have joined the fray, feeding fear and 
hysteria, with some going so far as to say Islam is a cult, not 
a religion.
    Now, one just might want to dismiss such statements as 
silly and absurd if not for the fact that the vitriol has real 
life-and-death consequences for Muslim, Arab, Sikh, and South 
Asian Americans and their families. The message is clear: You 
are not welcome. Words that were graffitied last year on a sign 
for a mosque in Murfreesboro, Tennessee.
    But what gives me hope, Mr. Chairman, is knowing that more 
and more Americans from all walks of life are coming together 
to reject fear and divisiveness because they recognize that it 
is not American. As former Secretary of State Colin Powell 
poignantly said, ``Is there something wrong with being a Muslim 
in this country? The answer is no, that is not America.''
    I commend the stepped-up enforcement of the Nation's civil 
rights laws under the Attorney General's leadership, but 
challenges remain and more must be done. I refer the 
Subcommittee to my written testimony for specific 
recommendations of steps Congress and the administration should 
take and ask that my full written testimony be entered for the 
record. I would be happy to discuss those recommendations later 
in the hearing.
    Thank you.
    [The prepared statement of Farhana Khera appears as a 
submission for the record.]
    Chairman Durbin. Thank you very much, and I can tell as a 
former staffer you knew you had 5 minutes.
    [Laughter.]
    Chairman Durbin. Cardinal McCarrick, please proceed. Your 
written testimony will be made part of the record.

          STATEMENT OF CARDINAL THEODORE E. MCCARRICK,
   ARCHBISHOP EMERITUS OF WASHINGTON ON BEHALF OF THE UNITED 
     STATES CONFERENCE OF CATHOLIC BISHOPS, WASHINGTON, DC

    Cardinal McCarrick. Thank you, sir. Senator Durbin, Senator 
Kyl, allow me to thank you for the invitation and opportunity 
to be with you to offer testimony today. As Archbishop Emeritus 
of Washington, I am here today representing the United States 
Conference of Catholic Bishops. I will summarize my remarks and 
ask--and you graciously accepted--that my full testimony be 
entered into the record.
    My written testimony places the treatment of American 
Muslims in the broader context of religious liberty from the 
perspective of our rich American tradition and of our Catholic 
tradition and experience. As a community that has been the 
target of religious discrimination, even as was mentioned 
earlier, we understand the need today to bring attention to 
protecting the civil rights of our Muslim brothers and sisters. 
We see religious freedom as an essential foundation for our 
life together in our Nation and across the globe. Over time we 
have made much progress together, but we fear this shared 
foundation is being weakened and undermined by religious 
prejudice, unwise policies, and polarizing words and tactics 
which divide us. Most appallingly, religious freedom is 
destroyed by attacks on people in some countries because of 
their religion and by the terrible misuse of religion to incite 
hatred and even justify violence.
    Sadly, this fundamental betrayal of religious belief, 
attacking those of differing religious perspectives in the name 
of religion, can sometimes be used to promote suspicion and 
fear of all people associated with a particular religious 
tradition. This kind of generalized religious prejudice is 
wrong and unjust and a clear violation of religious freedom. A 
justified concern for security and the appropriate pursuit of 
those who pervert religion to attack others cannot be allowed 
to turn into a new form of religious discrimination and 
intolerance. This is why we stand with our Muslim brothers and 
sisters in defense of their dignity and rights, just as we 
welcome and expect their reciprocity and solidarity with us 
when the rights of Christians and other religious groups are 
violated around the world.
    In our pluralistic society, religious values and 
commitments are assets for the common good, not sources of 
division or conflict. Today we note with particular sadness 
that Muslim Americans, with whom we have had a positive ongoing 
dialogue for over two decades, have had their loyalty and 
beliefs questioned publicly in sweeping and uninformed ways. 
This compels us to reach out in solidarity in support of their 
dignity and rights as Americans and believers.
    We worry about the rhetoric and actions that target our 
Muslim neighbors and friends. Like our own historical 
experience, their very loyalty as Americans and their 
traditions and values are being threatened.
    We remain firmly committed to the defense of religious 
liberty for all--not just for Catholics--because our commitment 
is to the dignity of each and every human person.
    At the same time, we recognize that not every charge of 
wrongdoing against people or groups within a religious 
community amounts to religious discrimination, bias, or 
bigotry. Religious beliefs are no excuse for threatening others 
with or carrying out acts of violence. At this particular 
moment in our Nation's history, we face a real threat to our 
national security from one kind of terrorism that has its 
origins in a particular form of extremist ideology which holds 
itself out, falsely, as authentic Islam.
    The legitimate concern for the public order, however, must 
be pursued with effective skill and respect for religious 
liberty. In particular, we need to avoid generalizing about any 
religion, especially about Islam, based solely on the extreme 
views and conduct of a small group of radical extremists. Those 
unfounded generalizations and efforts to fan the flames of fear 
are wrong and unjustified, but are especially inappropriate and 
hurtful when expressed by leaders in public life. These attacks 
are a grave injustice against the vast majority of Muslims in 
the United States who are loyal and productive members of our 
American society.
    For the Catholic bishops, religious freedom and its absence 
have many expressions, our own history as an immigrant people 
and a religious minority has its own stories of suspicion, 
discrimination, and intolerance. And, unfortunately, these are 
not merely a thing of the past. When the very right of 
conscience is sometimes attacked, the ability to exercise 
religious beliefs is subverted. There are well-known 
contemporary examples where the state would force religious 
groups and individuals to choose between following their 
religious beliefs and practices and following the dictates of 
law. Where is the respect for religious freedom, we ask, in 
compelling a religious entity to perform an act which 
contradicts its basic moral principles? Who ultimately suffers 
by undermining the rights of conscience for religious groups 
and individuals? It is not merely the integrity of the 
principle of religious freedom, but also the people whom we 
serve and employ.
    As pastors within a universal church, we Catholic bishops 
hear the cries and share the pain of believers around the world 
who suffer persecution, violence, and discrimination simply 
because of their religious identity. In the last year alone, we 
have seen dramatic examples of the persecution of Catholic and 
other Christian communities around the globe. An example that 
strikes us is this March, Shabhaz Bhatti, the Pakistani 
Minister of Minority Affairs, was assassinated at the hands of 
Muslim extremists. Mr. Bhatti was a Roman Catholic who had 
advocated for tolerance and religious freedom for all religious 
minorities in Pakistan. For this courageous witness, he was 
brutally murdered.
    We appreciate the many sincere expressions of sympathy and 
condemnation that have come from our religious partners, our 
dialogue partners in the Muslim community, especially the 
Islamic Society of North America, the Islamic Circle of North 
America. They have stood with us as trusted allies in speaking 
out against violence and in defense of religious freedom. 
Solidarity among people of every religion in the face of 
attacks on people of any one religion is respect for religious 
freedom in action.
    Concluding, as a religious community, our Catholic faith 
commits us to defend and promote the right to religious freedom 
for all as a moral priority and a human responsibility. This 
common commitment to religious freedom is at the heart of 
American life. It is also an example to a world where too many 
doubt that people of different religions can live together in 
peace and mutual respect.
    As other countries wrestle with how to treat religious 
minorities, let them look to our Nation where we work to ensure 
that our Muslim sisters and brothers are treated with dignity 
and that their religious identity and beliefs must be treated 
with respect. Let them here see a people blessed with hard-won 
religious freedom living out our commitment to the rights of 
all by demonstrating full respect for the identity, integrity, 
and freedom of all religions.
    Thank you very much.
    [The prepared statement of Cardinal Theodore E. McCarrick
appears as a submission for the record.]
    Chairman Durbin. Thank you so much, Cardinal. And when I 
make a closing statement here, I am going to include statements 
from a wide variety of religious faiths that join in your 
sentiment in expressing solidarity with Muslim Americans.
    At this point, Mr. Acosta, please proceed with your 
testimony. Your written statement will be made part of the 
record.

STATEMENT OF R. ALEXANDER ACOSTA, DEAN, COLLEGE OF LAW, FLORIDA 
            INTERNATIONAL UNIVERSITY, MIAMI, FLORIDA

    Mr. Acosta. Thank you, Mr. Chairman. Chairman Durbin, 
Senator Kyl, good morning. I want to take a minute to thank you 
for holding this important hearing, and I also want to take a 
minute to thank Assistant Attorney General Perez for his words 
and his Division's current efforts. General Perez graciously 
made an important point, that the protection of religious 
liberties is a bipartisan issue. Muslim Americans should take 
comfort in knowing that the effort to protect their religious 
liberties has been ongoing since 9/11, has transcended the 
partisan divide, and I hope continues to transcend the partisan 
divide.
    The title of today's hearing references American Muslims, 
and I thought it appropriate to begin by discussing two such 
individuals.
    The first is a student at the law school where I am now 
dean. He is one of our student leaders and, in fact, he is a 
candidate for student body president. I asked him to send me an 
email about himself. I was going to summarize it, but I am 
going to quote it in full because I thought it made a powerful 
point. He writes: ``I am a Muslim, born and raised in the 
United States. I suppose by most people's standards my 
childhood was pretty normal. I went to school, tried to get out 
of doing homework, and spent entirely too much time watching 
TV. The truth is I was pretty lazy. But that changed when I 
went to high school. I attended Estero High School, in Estero, 
Florida, where I was introduced to the Army's Junior Reserves 
Officer Training Corp. I loved the JROTC program. It taught me 
what it meant to be a leader and why it was important to take 
responsibility for my actions. I excelled in the program. In 
fact, I was the first cadet in my class to be made a cadet 
officer, and I ultimately reached the program's highest rank, 
cadet lieutenant colonel. But it is not my successes in JROTC 
that I remember most about high school. Rather, what I remember 
most about high school,'' he wrote, ``is the confusion, the 
fear that overcame me on September 11th, when our teacher 
turned on the classroom television just in time for me to watch 
the second plane crash into the second tower of the World Trade 
Center. I knew that my country had been attacked, so I did what 
I knew was right. Five months later I enlisted in the 
military.''
    ``I enlisted in the Florida Army National Guard on February 
7, 2002, and I transferred to regular active duty on July 27, 
2003. In late 2007, I left active duty so that I could go to 
law school.''
    Well, this student's name is Mohamed T. Al-Darsani, and 
last summer, he was selected as one of only 25 first-year law 
students in the Nation to intern for the Army's Judge Advocate 
General Corps. His goal is to become a JAG officer.
    The second individual that I want to talk about is a young 
woman by the name of Nashala Hearn. Ms. Hearn testified to this 
Committee in June 2004. At the time, she was 11.
    Nashala's story begins in Oklahoma at the start of the 2003 
school year. At the time she told sixth grade teacher that she 
was Muslim, and that she wore a head scarf as part of her 
religion. The teacher did not object at the time, and Nashala 
happily attended school for the next month. That changed on 
September 11, 2003, when her teacher asked her to remove her 
head scarf. The school permitted students to wear baseball caps 
and kippahs, but wanted her to remove her head scarf because it 
``frightened'' other sixth grade students. Nashala declined and 
was sent to the principal's office. The principal insisted that 
she remove her head scarf, and when she declined to do so, she 
was suspended. I authorized the Justice Department to intervene 
in the case, and eventually, after court action, Nashala was 
permitted to return to school wearing her head scarf.
    I speak about these two individuals because I think that it 
highlights some important principles, some critical principles 
that make our Nation great.
    The first principle is that foremost we are all Americans. 
Mr. Al-Darsani is an American. Listen to his words: ``I knew 
that my country had been attacked, so I did what was right. 
Five months later, I enlisted in the military.''
    The second principle is religious freedom. Nashala's 
situation was an opportunity for a public school to teach this 
principle of freedom. School officials could have taken the 
opportunity to talk about America's early settlers and their 
search for freedom to express their faith. School officials 
could have taken this opportunity to teach basic civics, a 
topic that is sometimes lacking in our system of education. 
They could have taken this opportunity to say that fear is 
wrong, that respect and tolerance for another's faith is right, 
and that these are founding principles of our Nation. Instead, 
these public school officials fed the fear, signaling to 
Nashala's fellow sixth graders that they should be afraid of 
the head scarf, and that the head scarf, and by extension her 
faith, should be suppressed.
    Nashala's case, unfortunately, offers an insight into our 
nature. Our Nation is strong because we respond to attack with 
resolve. History has shown, however, the need for leadership 
that tempers resolve with wisdom. President George W. Bush 
understood this, when on September 17th he visited the Islamic 
Center of Washington to remind a then resolute Nation that 
``[t]hose who feel like they can intimidate our fellow citizens 
to take out their anger . . . should be ashamed of that kind of 
behavior.'' President Obama has understood this and has spoken 
out as well.
    Ten years later, as we approach the anniversary of 9/11, I 
feel obligated to conclude by stating the obvious: As a Nation, 
we have not forgotten the events of 10 years ago. Emotions 
remain charged, and the desire to blame remains high. This is a 
good time, this is a critical time to temper our resolve with 
wisdom and to recall and to remain true to our American ideals 
and freedoms. We need to ensure that all people in this land 
are free to practice their faiths without fear of retaliation 
or reprisal.
    I thank you for the hearing and for your time and look 
forward to your questions.
    [The prepared statement of R. Alexander Acosta appears as a 
submission for the record.]
    Chairman Durbin. I have been in the Senate for a long time. 
I cannot recall a panel that has been so impressive. I thank 
you, all three of you, for your testimony. It was heartfelt and 
is going to make an excellent record of what we are trying to 
talk about today.
    I want to address an issue raised by Cardinal McCarrick and 
put it in terms of the topic that is before us. The Cardinal 
said--I am going to quote you here--``Where is the respect for 
religious freedom in compelling a religious entity to act in 
ways which contradict its most basic moral principles?''
    And now let us move this principle or thought to the 
question of Sharia law. You heard the question I asked earlier 
of Mr. Perez about where the line should be drawn. We certainly 
know the excesses of Sharia law. They are publicized every day. 
The killing of this man in Pakistan who made controversy by 
saying he was opposed to the blasphemy laws, he gave his life 
for speaking out for tolerance. The same thing, the suggested 
stoning of women for certain transgressions in Muslim 
countries. Those for many people are the images of Sharia law.
    I would like to ask you, Ms. Khera, put what the Cardinal 
said in the context of Sharia law and what we know to be 
excesses in some contexts, but to be part of Muslim religious 
practice in a very peaceful way in another context.
    Ms. Khera. Right. Mr. Chairman, thank you for that 
question. I think, as you pointed out and Mr. Perez pointed out 
earlier as well, for everyday American Muslims what Sharia 
really means is those guidelines that guide our everyday life, 
so whether it is prayer, fasting, issues of marriage, in the 
way that religious law guides those everyday activities for 
Christians and Jews and other faith communities in the United 
States.
    The kinds of, should I say, excesses of Sharia that you 
have outlined, I cannot imagine the circumstances under which 
they would be tolerated here in America in our legal system. 
You know, as a legal matter, the Supremacy Clause ensures that 
the Constitution is the law of the land, no religious law, no 
foreign law, and that is absolutely important and something 
that, you know, I am personally very thankful is there.
    So I think this question of Sharia and these efforts to 
introduce bills to ban Sharia are just woefully misguided, and 
they are chasing a threat that does not exist. But the 
implications, if they are actually allowed to be enacted, you 
know, taking, for example, the Oklahoma one, could have very 
significant consequences in terms of the religious practice of 
American Muslims here at home, and that is why it does concern 
us.
    Chairman Durbin. I will ask you to go a step further 
because the case we talked about here, the American Muslim who 
raised the case in Oklahoma was objecting saying that it was 
Sharia law that had guided him in the execution of his will, 
how he would leave his property after death. Can you give me 
other illustrations? I mean, as I said, the stereotype of 
Sharia law is extreme, and we would not countenance it for any 
religion in this country.
    Ms. Khera. Right.
    Chairman Durbin. Can you give me other illustrations of 
Sharia law in the life of an American Muslim that you believe 
should be understood by most?
    Ms. Khera. So the one example you gave is a very good one 
in terms of the way some people may decide to write a will. It 
may also entail decisions to get married and those who get 
married under religious law in terms of how they go about their 
life, things like the prayer, how they pray, when they pray, 
fasting, which is also a cornerstone of the faith. Those are 
just some examples.
    Chairman Durbin. As well I believe donations----
    Ms. Khera. Yes, charity, charitable giving is an obligation 
for American Muslim as it is for many people of faith in this 
country.
    Chairman Durbin. And the Hajj?
    Ms. Khera. And the Hajj, yes, thank you--which was a topic 
earlier in the hearing. Thank you. The pilgrimage is something 
that is required for American Muslims as well.
    Chairman Durbin. I realized after 9/11 I did not even know 
the pillars of Islam, and I was trying to recall some of them 
as you testified.
    Mr. Acosta, would you address that in your role as former 
Assistant Attorney General for Civil Rights, this question of 
Sharia law?
    Mr. Acosta. Certainly, I will try to do so, although I will 
confess to not being familiar with the details of Sharia law. I 
guess I have two thoughts.
    First, I would have concerns about equal protection issues. 
While a legislature or a State can certainly determine to what 
laws a State court will look, there are concerns when a 
particular type of law or a particular religion is singled out 
as against others, in much the same way that you cannot ban a 
head scarf but allow other head coverings.
    Second, I would also note that as a general rule courts do 
not apply foreign laws or religious laws. The context where 
that might come up is in the conflict of law situation when the 
contract or the will or the document of adhesion references 
another jurisdiction, and in that case it is the individuals 
that are signatories that are asking the court to look beyond 
the local jurisdiction and apply that other law. So this is a 
fairly unusual circumstance where that would come up.
    Chairman Durbin. I do not want to misstate your position, 
but I think initially you said neutrality.
    Mr. Acosta. Neutrality, absolutely.
    Chairman Durbin. So that you would put whatever that 
religious belief is in the context of American law.
    Mr. Acosta. Absolutely.
    Chairman Durbin. That is the way I see it, too. I do not 
understand the other point of view, and I wanted to see if 
maybe you could point to some difference that I do not see. But 
I think we are in agreement on that.
    Cardinal McCarrick, I need to ask you about a delicate and 
controversial issue. You played a role in the great controversy 
which rocked our country for weeks related to the Part 51, the 
proposed Islamic center in lower Manhattan. I understand that 
you were involved in an interfaith effort to stand in 
solidarity with American Muslims who were experiencing 
religious discrimination. Can you tell me how you got involved 
in this and describe that effort to the Committee?
    Cardinal McCarrick. Well, actually, I was involved only 
tangentially because it was a New York difficulty, a New York 
question, and we learned years ago do not get involved in other 
people's property because you have got enough troubles on your 
own. But it became such a national issue that people became 
very confused about it, and the Archbishop in New York, 
Archbishop Dolan, spoke to it, as did others.
    I think it was because I have been very much involved with 
the Muslim leadership here in this part of the country, 
especially with the Islamic Society of North America and its 
leadership, actually because we have been trying to work 
together to look for peace in the Holy Land. And so we have a 
very close relationship with the leadership of the Muslim 
groups and with the leadership of many of the Jewish groups in 
our area--all of us looking for the two-state solution, and we 
have become friends over that over the years. And it was that 
friendship which wanted us to speak out a little more 
carefully.
    A very difficult issue, an issue where you could understand 
reasons behind both positions, but I think we felt that you 
could not say this was an un-American thing, you could not say 
this was something that would destroy the unity of our 
religious friendship and our religious working together.
    That was basically that we wanted to try to keep it above 
the level of saying this is something that you have to do, you 
have to attack, you have to speak against. You could see that 
people of good will could look at both sides, but you had to 
make sure that they were looking at it at a level where they 
understood that whatever you decided you could not be condemned 
for because there were good arguments on both sides.
    That often is what is the position that is always best 
first to take. We run into a world where everything is black 
and white. Well, there are a lot of grays in our world, and it 
is important that we recognize that.
    Chairman Durbin. Thank you, Cardinal.
    Senator Kyl.
    Senator Kyl. Thank you.
    First of all, Dean Acosta, as a former Assistant Attorney 
General, let me just ask you a couple questions about Sharia. 
It seems to me it is one thing to say that Sharia should not be 
banned, but it is quite another to say that it should or could 
supplant U.S. civil or criminal law. Would that be a correct 
way to look at it?
    Mr. Acosta. I do not see why any foreign law or any 
religious law could or should supplant U.S. law.
    Senator Kyl. And if, therefore, it is merely a guide by 
which people should live their lives from a religious point of 
view, as has been described here, it could not and it should 
not allow things like underage marriage or polygamy or things 
of that sort. Would that be correct?
    Mr. Acosta. I think the Supremacy Clause makes clear that 
the U.S. law is the law of the land, absolutely.
    Senator Kyl. Thank you.
    And, Cardinal McCarrick, let me ask you: The U.S. 
Constitution and the teachings of your church allow all 
Americans to practice any faith of their choosing or no faith. 
Is that correct?
    Cardinal McCarrick. That is, absolutely.
    Senator Kyl. And it would also allow people to convert to a 
different faith, would it not?
    Cardinal McCarrick. Yes. We are not happy about that, but--
--
    [Laughter.]
    Cardinal McCarrick. That is certainly a part of our 
position and has been always.
    Senator Kyl. I think that is correct.
    For those who would condemn others in hateful language for 
doing that, that would not be--while that speech would be 
permitted, it would not be speech that--well, that speech would 
be permitted, but would you condemn--I guess I will ask it this 
way: Would you condemn people who use hateful or inciteful 
speech against those who have converted to another faith?
    Cardinal McCarrick. Well, I think generally you should love 
your neighbor even if you do not love the actions that your 
neighbor posits. You have to have respect for your neighbor. 
You might tell your neighbor, ``We think you are wrong, we are 
sorry that you are doing this,'' but to attack them as being 
anything less than your neighbor would certainly not be a 
Christian point of view.
    Senator Kyl. Right. Ms. Khera, let me ask you a similar 
question. You belong to an organization which has been very 
clear about its positions on the website, for example. I wonder 
if you have made any public pronouncement or statement 
condemning those religious leaders who have employed violent or 
hateful rhetoric or promoted hateful views of other religious 
groups. Have you done that or has your website done that?
    Ms. Khera. Well, let me, maybe by way of background, just 
clarify----
    Senator Kyl. As a former staffer, you know that my time is 
very limited so do not have a lot of background. I have three 
quick questions here. Have you done that?
    Ms. Khera. Well, let me just clarify, Senator Kyl. My 
organization's work is focused on protecting and upholding our 
constitutional values here at home.
    Senator Kyl. So you have not condemned the hateful speech 
of those who have criticized others in the way that I mentioned 
then?
    Ms. Khera. I guess I would have to know more specifically 
which particular case you are talking about.
    Senator Kyl. Well, let me just ask you this. Would you 
today criticize threats of death or physical harm directed at 
writers or commentators who have criticized Islamic extremism? 
You would condemn that today, would you not?
    Ms. Khera. I think we have in our country very cherished 
fidelity to the First Amendment, and that includes freedom of 
speech----
    Senator Kyl. I am not questioning whether people have the 
right to speak. The question is whether you would agree that 
that speech is helpful or hurtful, whether you would condemn it 
or be neutral about it.
    Ms. Khera. Those who would threaten to kill somebody 
because of their political views, religious views, that is 
inappropriate.
    Senator Kyl. And I am specifically talking about the 
website--I guess I should identify your site here, which I will 
in just a moment.
    Ms. Khera. It is MuslimAdvocates.org.
    Senator Kyl. Yes. MuslimAdvocates.org. Is that correct?
    Ms. Khera. Yes.
    Senator Kyl. Thank you. Let me just refer you to several 
cases here last year and then ask you about something on your 
website.
    Just last year, U.S. intelligence agents and our justice 
system uncovered and prosecuted a number of attempted terrorist 
attacks that were planned by radical Muslim extremists. A 
compilation produced by the Investigative Project on Terrorism 
based on recent Justice Department reports lists just the 
following incidents:
    On November 27th, Mohamed Osman Mohamud was arrested and 
charged with attempting to explode a car bomb in Portland, 
Oregon.
    October 27th, Farooque Ahmed was arrested for attempting to 
assist others whom he believed to be members of al Qaeda in 
planning multiple bombings in the metro area here in 
Washington.
    October 19th, Hosam Smadi was sentenced to 24 years in 
prison for attempting to blow up a skyscraper in Dallas, Texas.
    October 18th, a Federal court in Manhattan found that James 
Cromitie and four others were guilty of attempting to detonate 
explosives near a synagogue in the Bronx.
    On August 2nd, Russell Defreitas and Abdul Kadir were 
convicted of a conspiracy to attack John F. Kennedy Airport by 
exploding fuel tanks under the airport.
    On June 21st, Faisal Shahzad pleaded guilty to attempting 
to detonate a car bomb in Times Square. He was sentenced to 
life in prison.
    On March 18th, David Headley pleaded guilty to charges that 
he participated in planning the November 2008 attacks in 
Mumbai, India, which killed 164 people.
    Every one of these incidents could have resulted in the 
deaths of hundreds of people. In fact, the Headley plot, of 
course, did, including six Americans.
    All of these terrorists were obviously indifferent to whom 
they killed, including women and children, and I think we owe a 
debt of gratitude to the enforcement agents who identified and 
stopped the plots before they could be carried out.
    In view of this history, I was curious about your website, 
the so-called Community Alert Section, which is apparently 
directed to American Muslims, and it notes, and I quote, ``The 
FBI is contacting American Muslims to elicit information and 
advice about addressing violent extremism. Muslim Advocates 
strongly urges individuals not to speak to law enforcement 
officials without the presence of a lawyer.'' And I was stunned 
that you would issue that kind of instruction to people who 
would read your site since, obviously, cooperation from Muslim 
Americans is one of the best ways that law enforcement can 
uncover terrorist plots like the ones that I described. And it 
seems to me that it is the civic obligation of all Americans to 
assist in preventing these heinous crimes, especially given the 
participation of Muslims in all the attempted attacks that I 
mentioned. I would think that Muslim Americans would feel a 
special obligation to help intelligence agencies root this out.
    Do you think it is wrong to investigate and prosecute the 
individuals that I mentioned? And do you stand by the Muslim 
Advocates Community Alert instructing Muslim Americans not to 
cooperate with the FBI and other law enforcement investigating 
potential acts of terrorism, or at least not without having a 
lawyer present?
    Ms. Khera. Senator Kyl, I fully understand the threat that 
we are facing. You know, on September 11th, I was working right 
here in the Capitol, and I ran from the Capitol with my 
colleagues as we thought planes were approaching. So I fully 
understand the threat. Those who engage in criminal acts must 
be stopped and brought to justice. And every American has a 
civic duty to report criminal activity to law enforcement.
    You know, and I might add that Attorney General Holder has 
actually said that the cooperation of the American Muslim 
community has been essential to detecting and thwarting 
terrorist plots.
    At the same time, every American has the right to seek 
legal advice, and that is a right that is guaranteed to every 
American. And I know you are a lawyer. We are both lawyers. And 
I think we both know that our legal system is quite complex, 
and so encouraging community members to seek legal advice as 
they interact with law enforcement is something that every 
American has a right to do.
    Senator Kyl. So you stand by that statement on your 
website?
    Ms. Khera. I stand by all the statements on my website.
    Chairman Durbin. Thank you very much.
    I recall a few weeks after 9/11, just remembering when I 
raced from the Capitol as you did that day, I flew into O'Hare, 
and as I went out to get a taxicab, there was a man wearing a 
turban in the cab. And I got in the cab and sat in the back 
seat, and as we started to pull away, I said to him, ``How have 
things been for you since 9/11?'' Well, he said, ``I am sick, 
and I wear this turban every day. Some people give me the 
finger. Some curse at me. Some will not get in my cab. But most 
people are just fine.'' He said, ``I wish they would get in my 
cab. I would like to show them something.'' And he reached over 
and he pulled down the passenger side visor, and there was a 
picture of a young man in an American U.S. Army military 
uniform. And he said, ``This is my son. He is somewhere now 
overseas in the Middle East, and he cannot even tell me. But he 
is fighting for our country. And my other son is going to 
enlist in the Marine Corps.''
    And I thought to myself, the people who were cursing him, 
if they only knew that this man was putting his two most prized 
possessions in service to the United States, risking their 
lives to keep this Nation free.
    I cannot quarrel with anyone who argues that we have a 
threat of terrorism and have to deal with it honestly. What I 
hope this hearing has suggested is that among the millions of 
Muslim Americans, the overwhelming majority are patriotic, law-
abiding people who simply want to live their lives as we all do 
in this great and free country. We all have to work to keep it 
safe, Muslim Americans and those who are not. But the purpose 
of this hearing was to make it clear that there are some basic 
and fundamental principles that should guide us in our 
relationships with one another. And your testimony today, I 
want to say for all three of you, has been extraordinary.
    I would like to close, as I mentioned I would, thanking you 
again but also noting that some of the groups that have 
submitted statements in support of this hearing, the 
Subcommittee received written statements from over 40 different 
organizations: the ACLU, the Alliance for Justice, the American 
Jewish Committee, Human Rights First, Interfaith Alliance, 
Islamic Society of North America, Leadership Conference on 
Civil and Human Rights, Military Religious Freedom Foundation, 
Muslim Public Affairs Council, Sikh Coalition, South Asian 
American Leaders Together, Southern Poverty Law Center, and the 
United Methodist Church. And without objection, I will put the 
statements in the record.
    [The statements appear as submissions for the record.]
    Chairman Durbin. I wanted to note in particular a statement 
we received from an interfaith coalition called Shoulder to 
Shoulder: Standing with American Muslims, Upholding American 
Values. Among others, this coalition includes the American 
Baptist Churches USA, Disciples of Christ, the Episcopal 
Church, Evangelical Lutheran Church, the Islamic Society of 
North America, the Religious Action Center of Reform Judaism, 
and the Reconstructionist Rabbinical Association. Here is part 
of what they said in their statement: ``We remain profoundly 
distressed and saddened by the incidents of violence committed 
against Muslims in communities across America, by the 
desecration of Islamic houses of worship, and by the 
destruction of sacred texts. We stand by the principle that to 
attack any religion in the United States is to do violence to 
the religious freedom of all Americans. We encourage all 
citizens of this country to honor freedoms guaranteed by our 
Constitution that enable the free exercise of religion across 
our great land.''
    That is an appropriate note to close. If there are no 
further comments from our panel or colleagues, I am going to 
thank the witnesses again and tell you that the hearing record 
is going to be open for 2 weeks, and additional materials and 
questions may be sent your way, which I hope you will reply to 
in a prompt manner.
    Thank you again for being part of this hearing.
    [Whereupon, at 11:57 a.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record
              
              
              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
